      Department of Homeland Security




        The State of Georgia’s Management of State 

        Homeland Security Program and Urban Areas 

         Security Initiative Grants Awarded During 

              Fiscal Years 2008 Through 2010 





OIG-12-110                                    August 2012

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                                 Washington, DC 20528 / www.oig.dhs.gov

                                         AUG 3 2012 
 
 MEMORANDUM FOR:             Elizabeth M. Harman 
                             Assistant Administrator  
                             Grant Programs Directorate  
                             Federal Emergency Management Agency  
 
FROM:                        Anne L. Richards 
                             Assistant Inspector General for Audits  
 
SUBJECT:                     The State of Georgia’s Management of State Homeland 
                             Security Program and Urban Areas Security Initiative 
                             Grants Awarded During Fiscal Years 2008 Through 2010  
 
Attached for your action is our final report, The State of Georgia’s Management of State 
Homeland Security Program and Urban Areas Security Initiative Grants Awarded During 
Fiscal Years 2008 Through 2010.  We incorporated the formal comments from the 
Federal Emergency Management Agency (FEMA) in the final report.   
 
The report contains nine recommendations aimed at improving the overall 
management, performance, and oversight of FEMA’s State Homeland Security and 
Urban Areas Security Initiative grant programs.  Your office concurred with the intent of 
all of the recommendations.  As prescribed by the Department of Homeland Security 
Directive 077‐1, Follow‐Up and Resolutions for the Office of Inspector General Report 
Recommendations, within 90 days of the date of this memorandum, please provide our 
office with a written response that includes your (1) agreement or disagreement, (2) 
corrective action plan, and (3) target completion date for each recommendation.  Also, 
please include responsible parties and any other supporting documentation necessary 
to inform us about the current status of the recommendation.  Until your response is 
received and evaluated, the recommendations will be considered open and unresolved. 
 
Consistent with our responsibility under the Inspector General Act, we are providing 
copies of our report to appropriate congressional committees with oversight and 
appropriation responsibility over the Department of Homeland Security.  We will post 
the report on our website for public dissemination. 
 
 Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant 
Inspector General for Audits, at (202) 254‐4100.  
 
Attachment 
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1 


   Background ........................................................................................................................ 2 


   Results of Audit ................................................................................................................... 2 


           Improvements Needed To Enhance the State of Georgia’s Grant Management
           Practices ................................................................................................................... 2
           Recommendations .................................................................................................. 15
           Management Comments and OIG Analysis ........................................................... 17

   Appendixes
           Appendix A:            Objectives, Scope, and Methodology ............................................. 23
           Appendix B:            FEMA Management Comments to the Draft Report ...................... 26
           Appendix C:            State of Georgia Management Comments to the Draft Report .... 31
           Appendix D:            Description of Homeland Security Grant Program Process ........... 42
           Appendix E:            Description of State of Georgia’s Homeland Security Grant
                                  Program Process.............................................................................. 43

           Appendix F:            Major Contributors to This Report.................................................. 46 

           Appendix G:            Report Distribution.......................................................................... 47 



   Abbreviations
           CFR                    Code of Federal Regulations
           DHS                    Department of Homeland Security
           FEMA                   Federal Emergency Management Agency
           FY                     fiscal year
           GEMA                   Georgia Emergency Management Agency
           HSGP                   Homeland Security Grant Program
           OIG                    Office of Inspector General
           SHSP                   State Homeland Security Program
           UASI                   Urban Areas Security Initiative




www.oig.dhs.gov                                                                                                                 OIG-12-110
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of
   2007, as amended, requires the Department of Homeland Security (DHS) Office of
   Inspector General (OIG) to audit individual States’ management of State Homeland
   Security Program and Urban Areas Security Initiative grants. This report responds to the
   reporting requirement for the State of Georgia.

   The objectives of the audit were to determine if the State of Georgia distributed and
   spent State Homeland Security Program and Urban Areas Security Initiative grant funds
   effectively and efficiently and in compliance with applicable Federal laws and
   regulations. We also addressed the extent to which grant funds enhanced the State of
   Georgia’s ability to prevent, prepare for, protect against, and respond to natural
   disasters, acts of terrorism, and other manmade disasters. The audit included a review
   of approximately $106 million in State Homeland Security Program and Urban Areas
   Security Initiative grants awarded to the State of Georgia during fiscal years 2008
   through 2010.

   In most instances, the State of Georgia distributed and spent the awards in compliance
   with applicable laws and regulations. However, the State needs to- develop a
   comprehensive strategy with measureable objectives, develop a performance
   measurement system to assess emergency preparedness, timely obligate
   unencumbered grant funds, and strengthen onsite monitoring to ensure subgrantee
   compliance with Federal inventory and accountability requirements.

   Issues existed because the Federal Emergency Management Agency (FEMA) and the
   Georgia Emergency Management Agency did not provide sufficient guidance and
   oversight for the grant process. Our nine recommendations call for FEMA to initiate
   improvements which, if implemented, should help strengthen grant program
   management, performance, and oversight. FEMA concurred with the intent of all of the
   recommendations.




www.oig.dhs.gov                               1                                     OIG-12-110
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   help State and local agencies enhance capabilities to prevent, deter, respond to, and
   recover from terrorist attacks, major disasters, and other emergencies. Within DHS,
   FEMA is responsible for administering the HSGP. FEMA supports preparedness by
   developing policies, ensuring that adequate plans are in place and validated, defining
   capabilities required to address threats, providing resources and technical assistance to
   States, and synchronizing preparedness efforts throughout the Nation. Appendix D
   provides a detailed description of the interrelated grant programs that constitute HSGP.

   HSGP guidance requires the Governor of each State and Territory to designate a State
   Administrative Agency to apply for and administer grant funding awarded under the
   HSGP. The State Administrative Agency is the only entity eligible to formally apply for
   HSGP funds. FEMA requires that the State Administrative Agency be responsible for
   obligating grant funds to local units of government and other designated recipients
   within 45 days after receipt of funds. The Governor of Georgia created the Office of
   Homeland Security on January 13, 2003, and designated the Georgia Emergency
   Management Agency (GEMA), within the Office of Homeland Security, to serve as the
   State Administrative Agency for the State of Georgia (State).

   GEMA was awarded more than $106 million in HSGP funds during fiscal years (FYs)
   2008, 2009, and 2010. This included $61.7 million in State Homeland Security Program
   (SHSP) funds and $41.25 million in Urban Area Security Initiative (UASI) grant funds.
   During this period, GEMA subawarded HSGP funds to one urban area and eight regions,
   which included various State agencies, municipalities, and local jurisdictions.

   Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of
   2007, as amended, requires DHS OIG to audit individual States’ management of SHSP
   and UASI grants. This report responds to the reporting requirement for the State of
   Georgia. Appendix A provides details on the objectives, scope, and methodology of this
   audit.

   Results of Audit
           Improvements Needed To Enhance the State of Georgia’s Grant Management
           Practices

           In most instances, the State of Georgia distributed and spent SHSP and UASI
           awards in compliance with applicable laws and regulations. However, we



www.oig.dhs.gov                                2                                      OIG-12-110
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           identified the following needed improvements to the State’s grant management
           practices:

           •	 The State’s SHSP and UASI strategies should include measurable objectives;

           •	 GEMA should develop adequate performance measures to assess overall
              State capabilities and preparedness;

           •	 GEMA should notify and obligate grant funds to subgrantees more timely;
              and

           •	 GEMA should better monitor subgrantees.

           Issues existed because FEMA and GEMA did not provide sufficient guidance and
           oversight for the grant process. As a result, the State did not have an effective
           way to measure or assess overall State capabilities and emergency
           preparedness.

           Measurable Objectives

           The State did not include measurable target levels of performance in its State
           Homeland Security Strategies. According to Department of Homeland Security
           State and Urban Areas Homeland Security Strategy Guidance on Aligning
           Strategies with the National Preparedness Goal, dated July 22, 2005, an objective
           sets a tangible and measurable target level of performance over time against
           which actual achievement can be compared, including a goal expressed as a
           quantitative standard, value, or rate. The guidance also mandates that an
           objective should be—

           •	 Specific, detailed, particular, and focused—helping to identify what is to be
              achieved and accomplished;

           •	 Measurable—quantifiable, providing a standard for comparison, and
              identifying a specific achievable result;

           •	 Achievable—not beyond a State, region, jurisdiction, or locality’s ability;

           •	 Results-oriented—identify a specific outcome; and

           •	 Time-limited—having a target date to identify when the objective will be
              achieved.


www.oig.dhs.gov                                 3	                                      OIG-12-110
                                       OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


           Georgia could not demonstrate quantifiable improvement and accomplishments
           to reduce its vulnerability to terrorism and natural disasters. The 2006 State
           Homeland Security Strategy included 37 objectives, of which 8 were completed.
           Twenty-three of the 37 objectives had completion dates that had expired more
           than 5 years ago. The 2006 strategy did not include an evaluation plan required
           by 2005 FEMA guidance.

           Although GEMA revised the strategy in 2011 to include an evaluation plan, it
           included the same goals, objectives, implementation steps, and completion
           dates as the 2006 strategy (see table 1).

              Table 1: Shortcomings in State Homeland Security Strategy Objectives
                         Goal                   Objective                 Shortcomings
                  3. Reduce           3.3 Equipment: Procure           The objective is not—
                  Georgia’s           the equipment necessary to           • Specific
                  vulnerability to    implement an effective               • Measurable
                  terrorism and       public warning system by             • Results-oriented
                  natural disasters.  July 2006.
                  3. Reduce           3.4 Equipment: Procure           The objective is not—
                  Georgia’s           the equipment necessary to           • Specific
                  vulnerability to    harden critical infrastructure       • Measurable
                  terrorism and       and key assets in Georgia by         • Results-oriented
                  natural disasters.  July 2007.
                  4. Provide an       4.2 Equipment: Procure           The objective is not—
                  optimal response    the equipment necessary to           • Specific
                  capability.         provide an optimum                   • Measurable
                                      response capability within           • Results-oriented
                                      the State of Georgia by July
                                      2010.
                  4. Provide an       4.3 Training: Sustain a          The objective is not—
                  optimal response    broad-based training                 • Specific
                  capability.         program to promote                   • Measurable
                                      competency and                       • Time-limited
                                      standardization of all               • Results-oriented
                                      emergency personnel across
                                      all response disciplines.
                  Source: GEMA, State Homeland Security Strategy.

           Similar to the State’s strategy, the 2010 UASI Homeland Security Strategy
           contained objectives that were not specific, measurable, and results-oriented.
           The UASI strategy had 47 objectives, of which 16 did not have estimated
           completion dates. Table 2 provides some examples of shortcomings found in the
           UASI strategy.




www.oig.dhs.gov                                        4                                        OIG-12-110
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


              Table 2: Shortcomings in the State’s UASI Homeland Security Strategy 

                         Goal               Objective              Shortcoming
                  1. Improve and         Work with GEMA to The objective is not—
                  sustain regional       identify and               • Specific
                  collaboration through  implement best             • Measurable
                  unified homeland       practices related to       • Results-oriented
                  security efforts.      the region- and
                                         statewide mutual aid
                                         system.
                  3. Develop and         Develop common        The objective is not—
                  sustain effective      platforms for              • Specific
                  regional public safety seamless                   • Measurable
                  preparedness and       communication using        • Results-oriented
                  protection.            information
                                         technology.
                  4. Enhance the Metro Procure equipment       The objective is not—
                  Atlanta UASI's         necessary to               • Specific
                  capability to respond  implement effective        • Measurable
                  to an all-hazards      public information         • Results-oriented
                  incident, including    and warning/mass
                  terrorism.             notification.
                   Source: Metro Atlanta UASI Homeland Security Strategy.

           According to FEMA officials and documented correspondence, FEMA approved
           the State and UASI Homeland Security Strategies on March 12, 2011. FEMA only
           reviewed the strategy to ensure that all national priorities were addressed,
           associated goals and objectives were included, and the strategy contained an
           evaluation plan. FEMA’s review did not ensure that the goals and objectives
           were measurable or that the strategy contained timeframes for completion.

           Without adequate goals and objectives, the State does not have an effective
           evaluation plan for monitoring progress, compiling key management
           information, tracking trends, and keeping planned work on track. Measurable
           goals and objectives would provide the State with a basis to evaluate the
           progress it has made on its preparedness, prevention, response, and recovery
           capabilities.

           Performance Measures

           GEMA does not have sufficient performance measures to use as a basis for
           determining progress toward its goals and objectives—specifically, to evaluate
           the progress of emergency preparedness and response capabilities of grant
           expenditures. According to the Code of Federal Regulations (CFR), 44 CFR 13.40,
           Monitoring and Reporting Program Performance, grantees must monitor grant­


www.oig.dhs.gov                                     5                                    OIG-12-110
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           and subgrant-supported activities to ensure compliance with applicable Federal
           requirements and to ensure that performance goals are being achieved.

           In 2007, GEMA began using an Overall Readiness Index to assess its ability to
           respond to an emergency. The index does not align specifically with any target
           capabilities in FEMA guidance; however, it does identify six capabilities that
           could be used as a basis for developing performance measures until FEMA issues
           guidance. The six capabilities are designed to measure GEMA’s ability to
           respond to emergencies involving the displacement of up to 50,000 individuals,
           affecting up to 50 counties, and supporting a response effort for up to 5 days,
           until national supplemental assistance arrived.

           This index was not designed to assess overall State emergency capabilities and
           preparedness as required by FEMA guidance. Furthermore, it compiles data
           subjectively, using information that is difficult to verify. For example, discussions
           between key GEMA leaders are used to develop objectives for the next period.
           Results of each period are shared with staff, but this is done informally and not
           through a formalized, written process.

           To determine capabilities, GEMA identifies local region needs and levels of
           preparedness through different taskforces and All Hazards Council meetings.
           The All Hazards Council is a non-governing body of representatives from local
           public safety and response agencies, elected officials, and other stakeholders
           from the State’s eight Regional Areas. The council members plan and coordinate
           regional priorities and needs. The information generated from these meetings is
           used to create and prioritize investment justifications and GEMA’s annual State
           Preparedness Report. GEMA does not use this information for the Overall
           Readiness Index.

           FEMA has not provided clear guidance to States for development of performance
           measures. FEMA has provided States with emergency preparedness priorities
           and target capability needs. States then use this information as a basis for their
           State Self-Assessments. 1 However, the guidance has changed each year since
           2008 in substantive ways that require States to shift priorities and focus. GEMA
           officials said these changes make it difficult to measure performance and to
           make year-to-year comparisons.



   1
    FEMA has changed the yearly State Preparedness Report into an assessment of Target Capabilities. The
   State Self-Assessment is GEMA’s process of assessing current levels of specific Target Capabilities through
   an annual statewide All Hazards Council seminar.

www.oig.dhs.gov                                         6                                             OIG-12-110
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Under Public Law 111-271, Redundancy Elimination and Enhanced Performance
           for Preparedness Grants Act, Congress required the National Academy of Public
           Administration to assist FEMA with developing and implementing measurable
           national preparedness capability requirements and evaluation criteria (speed,
           effectiveness, and efficiency, among others). These requirements will include a
           specific timetable for promptly developing a set of quantifiable performance
           measures and metrics to assess the effectiveness of the programs under which
           covered grants are awarded.

           Without adequate performance measures, GEMA does not have a sufficient
           basis to evaluate progress in emergency preparedness and response capabilities
           resulting from grant expenditures. GEMA is also unable to adequately
           determine progress toward its goals and objectives.

           Timely Obligation of Grant Funds

           Although GEMA met the established timeframe for submitting the required
           Initial Strategy Implementation Plan to FEMA for FYs 2008 through 2010, GEMA
           did not obligate SHSP funds within 45 days as required in FEMA Homeland
           Security Grant Program Guidance (FEMA program guidance).

           FEMA program guidance requires the State Administrative Agency to obligate
           passthrough grant funds within 45 days of FEMA’s award date and includes the
           following requirements:

           •	 There must be some action to establish a firm commitment on the part of
              the awarding entity.

           •	 The action must be unconditional (i.e., no contingencies for availability of
              funds) on the part of the awarding entity.

           •	 There must be documentary evidence of the commitment.

           •	 The award terms must be communicated to the official grantee.

           GEMA did not make funds available for expenditure to subgrantees until as many
           as 261 days after the required period. Our review of 10 SHSP passthrough
           subgrantees during FYs 2008 through 2010 showed that in all 23 instances, grant
           funds were not timely obligated to the subgrantees (see table 3).




www.oig.dhs.gov                                 7	                                     OIG-12-110
                                          OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


                  Table 3: Timeliness of Obligation of Subgrantee Awards, FYs 2008-2010
                                                                                         Average
                                                                                       number of
                                                                    Average              days late
                                       Funds                       number of                for
                                    required to                   days late for         obligation
                                                                                     Number of
                     Fiscal         be obligated                      first            and second
                                                                                      budget
                     year                by                       notification         notification
                                                                                     worksheets
                     2008            10/6/2008                        79*                11261*
                     2009            10/5/2009                         18                 6 257
                     2010            11/1/2010                          0                 6130
                     Total                                                               23
                  * Note: Due to an unusual circumstance, one budget worksheet was late 619 

                  days for first notification and 655 days for second notification, and therefore 

                  was excluded from the calculation.

                  Source: DHS OIG.


           Obligation delays occurred because GEMA conducts an initial reallocation
           process and lengthy secondary review process before executing grant
           agreements. GEMA sends the first award notification to subgrantees after the
           award goes through a series of revisions and approvals at the management,
           director, and Governor levels. After the first letter is issued, GEMA and
           subgrantees revise the awards by specific projects into individual budget
           worksheets and develop a subgrantee agreement. Special provisions are added
           to the subgrantee agreement and a second notification letter is sent to the
           subgrantee (see figure 1).

                    Figure 1. First and Secondary Review Process after FEMA Award

                                                    GEMA               GEMA Director
                            FEMA awards                                                Governor reviews     GEMA sends first
                                                 management             reviews and
                               grant                                                    and approves          notification
                                               reallocate funds          approves




                             GEMA and                                 GEMA develops    Special conditions
                                                GEMA reviews                                                 PA division fills in
                          subgrantees revise                           subgrantee      to the subgrantee
                                                 and approves                                                $ amount; sends
                          awards into budget                            agreement        agreement are
                                               budget worksheet                                             second notification
                             worksheets                                  template            added

                          Source: DHS OIG.




www.oig.dhs.gov                                                             8                                                       OIG-12-110
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Procurement Practices

           The State and subgrantees did not ensure that Federal regulations were followed
           for procurements of equipment and services using HSGP funds. 44 CFR 13.36,
           Procurement, provides uniform administrative requirements for grants and
           cooperative agreements awarded to State and local governments. Federal
           procurement regulations direct grantees and subgrantees, except for States,
           to—

           •	 Acquire equipment and services under full and open competition.

           •	 Conduct cost analyses to ensure that prices obtained through
              noncompetitive procurements are fair and reasonable.

           •	 Use noncompetitive procurement—defined as procurement through
              solicitation from a single source, or, when competition is determined
              inadequate, after solicitation from several sources—only in certain
              circumstances. Specifically, noncompetitive procurement may be used when
              award of a contract is infeasible under small purchase procedures, sealed
              bids, or competitive proposals and—

                  	 The item is only available from a single source, or

                  	 Public emergency will not permit a competitive purchase, or

                  	 The awarding agency authorizes noncompetitive proposals, or

                    After solicitation of a number of sources, competition is determined
                    inadequate.

           We identified a subgrantee that awarded a noncompetitive contract for
           $2.2 million to purchase communication equipment. Subgrantee officials
           explained that the sole source contract was needed because this company’s
           equipment was the only equipment compatible with the existing infrastructure.
           However, this decision was not documented in a sole source justification.

           One contractor awarded a subcontract for $450,000 to a local university to
           update an inventory of food systems within the State. The university performed
           this work as part of a research project on State agricultural terrorism. However,
           the contractor had no sole source justification for awarding this subcontract
           noncompetitively. Although both the contractor and subcontractor are State


www.oig.dhs.gov                                   9	                                   OIG-12-110
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           entities and therefore exempt from Federal competitive bidding requirements,
           Georgia law requires competitive bidding for this particular procurement. The
           contractor claimed that the subcontractor had a unique ability to perform this
           ongoing work.

           These questionable procurement practices that can be attributed to the
           subgrantees’ limited knowledge of procurement requirements and GEMA’s
           limited oversight of procurements. Neither FEMA nor GEMA could provide
           evidence of reviewing noncompetitive procurements of more than $100,000.

           Procurement requirements are necessary to ensure grant funds provide
           equipment or services at reasonable prices. Without full and open competition,
           cost analysis, or sole source justification, the grantee cannot be assured that the
           cost of the equipment or services is reasonable. Accordingly, if a noncompetitive
           procurement is appropriate, a Georgia non-State grantee or a subgrantee must
           ensure that the justification includes a cost analysis. This analysis will determine
           the reasonableness of the proposed price.

           Subgrantee Program Monitoring

           GEMA’s monitoring efforts did not ensure subgrantee compliance with Federal
           laws and regulations. GEMA monitors subgrantees through desk monitoring, site
           visits, and regular contact between subgrantees and GEMA program managers.
           GEMA believes that these efforts are sufficient to identify and correct any
           financial, programmatic, and administrative issues that may occur. However, our
           review showed that these efforts did not always ensure subgrantee compliance
           with Federal laws and requirements.

           Office of Management and Budget Circular A-133, Compliance Supplement 2011,
           Part 3-Compliance Requirements, M-Subrecipient Monitoring, requires grantees
           to monitor subgrantees’ use of Federal awards through reporting, site visits,
           regular contact, or other means. Also, 44 CFR 13.40(a), Monitoring and
           Reporting Program Performance, requires grantees to (1) provide day-to-day
           management of all grant- and subgrant-supported activities and (2) ensure that
           subgrantees comply with applicable Federal requirements and achieve program
           performance goals.

           GEMA officials use a financial and program monitoring guide based on field best
           practices rather than specific Federal grant requirements. The guide includes
           eight sections, two of which relate to equipment and real property management
           practices and procurement. However, the guide does not adequately address all
           Federal requirements, including inventory and procurement practices.

www.oig.dhs.gov                                10                                       OIG-12-110
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



           GEMA’s desk monitoring involves fielding inquiries and reimbursing subgrantees
           for submitted expenses. The process allows GEMA to track subgrantee
           expenditures to ensure proper use of grant funds. GEMA grant managers review
           receipts and expenditures to ensure that projects are complete and meet all
           approved target capabilities.

           GEMA maintains that the level of review necessary to approve subgrantee
           requests for reimbursement provides enough assurance that grant funds are
           sufficiently monitored. However, the reimbursement process tracks financial
           data only and does not account for other monitoring requirements, including
           inventory of assets and verification of intended use.

           GEMA has conducted a limited number of site visits for subgrantees receiving
           HSGP funding from FYs 2008 to 2010. For example, although 227 subgrantees
           were funded over the 3 fiscal years reviewed, GEMA provided us with reported
           evidence of only five site visits. GEMA randomly selects one subgrantee from
           each of the eight Regional Areas within the State to undergo onsite monitoring
           at a time. GEMA has only one person dedicated to site monitoring activities, and
           this position recently became vacant.

           During our site visits, we observed two overarching compliance issues that could
           have been identified with a better monitoring program:

           •	 Subgrantees could not provide documentation that they fulfilled basic
              Federal acquisition requirements such as conducting market research to
              justify a sole source contract or to determine the best value for products and
              services.

           •	 Subgrantees did not have a proper inventory system in place and were not
              always aware that there was a Federal inventory requirement.

           GEMA maintains that subgrantees are continually monitored by informal site
           visits and desk monitoring. Within GEMA, the Homeland Security Division
           Director, Assistant Director, and Grant Program Managers meet with
           subgrantees, communicate by phone and email, and visit sites to ensure that
           grant projects are progressing as expected. GEMA maintains that these activities
           provide sufficient oversight of subgrantees. Our site visits and reviews
           demonstrated that these efforts do not always ensure compliance with all
           Federal grant laws and requirements.



www.oig.dhs.gov                               11	                                     OIG-12-110
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Grant Inventory Requirements

           Subgrantees did not always maintain inventory records in accordance with
           Federal requirements nor comply with property record requirements. Of the 15
           subgrantee sites we visited, 12 had inventory to be reviewed. We found that
           seven of these sites either did not have an inventory system in place or did not
           have all the pertinent information identified by Federal requirements.
           Subgrantees were also in violation of the Federal requirement that a physical
           inventory be conducted every 2 years and reconciled with property records.

           44 CFR 13.32(d), Management Requirements, establishes procedures for
           managing equipment (including replacement equipment), whether acquired in
           whole or in part with grant funds, and includes the following minimum
           requirements:

           •	 Property records must be maintained and include the property’s description,
              identification number, source of the property, and who holds the title holder,
              acquisition date, cost and percentage of Federal funds used in the cost,
              location, use and condition, and ultimate disposition.

           •	 A physical inventory of the property must be taken and the results reconciled
              with the property records at least every 2 years.

           •	 A control system must be developed to ensure that adequate safeguards are
              in place to prevent loss, damage, or theft of the property. Any loss, damage,
              or theft shall be investigated.

           •	 Adequate maintenance procedures must be developed to keep the property
              in good condition.

           Table 4 lists compliance issues.




www.oig.dhs.gov                               12	                                    OIG-12-110
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Table 4: State of Georgia HSGP Inventory Compliance Issues

            Subgrantee             Compliance Issue         Value of items tested
                                  44 CFR 13.32(d)(1)
            Gainesville       All assets not accounted for  Pricing not available
            Savannah           Inadequate inventory list          $300,702
            Macon              Inadequate inventory list          $359,974
            Muscogee             No inventory system               $43,854
            Marietta          Unable to adequately verify          $2,700
                                          assets
            Georgia State      Inadequate inventory list          $415,450
            Patrol
            Douglassville No inventory system, not aware          $643,126
                                     of requirement
            Total                                                $1,765,806
            Source: DHS OIG analysis.

           Typical inventory control violations included the following:

           •	 Did not always include serial number or other identifiable number for all
              listed equipment of the property;

           •	 No description of source or ownership (property of DHS);

           •	 No description of equipment condition; and

           •	 No estimated disposition date (estimated useful life).

           As noted in table 4, more than $1.7 million worth of equipment could be
           susceptible to theft or misuse because of the inadequacies in subgrantees’
           inventory controls.

           Subgrantees did not always mark equipment purchased with HSGP funds. The
           FEMA grant agreement requires grant recipients, when practicable, to
           prominently mark any equipment purchased with grant funding with the
           statement, “Purchased with funds provided by the U.S. Department of
           Homeland Security.” This is to ensure that equipment purchased is easily
           identified and its intended use can be verified.

           Subgrantee personnel indicated that they were not aware of the Federal
           property management requirements, although the requirements were included
           in the terms of the subgrantee contracts with GEMA. Also, the inventory list we
           received did not exactly match the inventory we reviewed. As a result, GEMA

www.oig.dhs.gov                                13	                                      OIG-12-110
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           cannot ensure that assets procured with grant funds are adequately safeguarded
           to prevent loss, damage, or theft and used as intended. This could result in an
           emergency situation in which GEMA may not always have knowledge of the
           location or ready access to vital emergency preparedness equipment.

           Prior Recommendations and FEMA Oversight

           We contracted an audit of the State of Georgia’s Management of the
           Department of Homeland Security Grants Awarded During Fiscal Years 2002
           through 2004, issued in January 2008, which reported conditions similar to those
           that continue to exist. Although FEMA agreed to follow up and monitor
           conditions, monitoring practices appear to be deficient.

           The report contained nine recommendations, six of which addressed the same
           conditions we found during our current review: (1) the need for a
           comprehensive strategy including viable evaluation metrics, (2) improper
           deliveries of equipment, (3) the need for better controls over procurement, (4)
           the need to maintain property records and conduct inventories, (5) awarding
           local funds to State agencies, and (6) untimely allocation of funds to local
           jurisdictions.

           Although the State did not concur with most of the findings from the prior
           report, it did concur with most of the recommendations and made changes to
           correct deficiencies. For example, Georgia has institutionalized performance
           measures and is currently formalizing performance measure procedures.
           Although the State has made some progress by instituting the Overall Readiness
           Index, its State Homeland Security Strategy, and performance measures need
           improvement.

           As discussed earlier in this report, untimely obligation of funds to subgrantees
           continues to be a challenge. In the 2008 report, the State did not concur and
           provided the following response: “…the awarding federal agency rescinded the
           requirement to obligate funds within 60 days for the FY 2003 Part 2 funds. The
           obligation periods for the FY 2003 Part 1 funds were set by the Grant Adjustment
           Notices as each budget was approved by DHS, and not measured by the Grant
           Award date.” Although that particular issue may have been corrected through
           the DHS adjustment, currently the unencumbered obligation of funds to
           subgrantees does not comply with FEMA requirements.

           Our review of supporting documentation of awarding local funds to State
           agencies revealed that written consents were signed by several parties who may
           have questionable signature authority, including an Association of County

www.oig.dhs.gov                               14                                     OIG-12-110
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Commissioners and individual police officers. We also noted that the use of the
           funds explained in the written consents was too generic—listing uses as training
           or planning—making it difficult to link the use of funds to the associated
           expenditures. According to the FEMA Homeland Security Grant Program
           Guidance and Application Kit, this may occur only with the written consent of the
           local unit of government or Urban Area jurisdiction, with the written consent
           specifying the amount of funds to be retained and the intended use of funds.

           Other issues persist, such as limited program monitoring of subgrantees and
           noncompliance with inventory requirements. In response to the 2008 findings,
           FEMA requested that the State ensure that the internal controls within and
           throughout its acquisition processes provide a reasonable level of assurance.
           FEMA also indicated that the State was monitoring its subgrantees, with the
           implementation of onsite visits in 2006. FEMA agreed to monitor the State’s
           progress with its subgrantee monitoring program through FEMA’s own periodic
           oversight of grant funds and activities.

           Although the State agreed upon corrective actions, these conditions continue to
           exist because FEMA’s followup and monitoring of GEMA is not sufficient. For
           example, in 2009 and 2010, FEMA grants management staff conducted onsite
           reviews covering areas such as financial administration, subrecipient monitoring,
           procurement, and controls over equipment. However, FEMA’s reviews did not
           identify the discrepancies we identified. The purpose of the FEMA onsite review
           is to provide guidance and recommendations to enhance the State’s efforts in
           managing Federal funding.

           Recommendations

           We recommend that the Federal Emergency Management Agency Assistant
           Administrator, Grant Programs Directorate:

           Recommendation #1:

           Assist the director of the Georgia Emergency Management Agency and the
           Urban Area Working Group in developing a comprehensive Homeland Security
           Strategy that—

           a.     Includes specific, measurable, and results-oriented objectives in compliance
                  with the most recent DHS guidance.
           b.     Ensures that objective completion dates are consistently listed in the
                  strategies, and are current and realistic for achieving each objective.


www.oig.dhs.gov                                  15                                     OIG-12-110
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #2:

           Require the Georgia Emergency Management Agency to align the Overall
           Readiness Index with FEMA grant guidance, so the index can be used as a basis
           for developing performance measures until the Federal Emergency Management
           Agency issues guidance.

           Recommendation #3:

           Require the Georgia Emergency Management Agency to assess and streamline
           the current processes and procedures involved with the execution of subgrantee
           awards to expedite and obligate funds according to the Federal Emergency
           Management Agency prescribed timeline.

           Recommendation #4:

           Require the Georgia Emergency Management Agency to notify all entities
           awarded Homeland Security Grant Program funds of the requirement to use and
           follow Federal, State, and local procurement policies and standards as required
           for purchasing or acquiring equipment and services.

           Recommendation #5:

           Encourage the Georgia Emergency Management Agency to complete a review of
           all grant-funded purchases using fiscal years 2008, 2009, and 2010 State
           Homeland Security Program and Urban Areas Security Initiative grant funds of
           $100,000. This should include those purchases made as sole source
           procurements and verify that sole source procurement was justified.

           Recommendation #6:

           Require the Georgia Emergency Management Agency to develop a program
           monitoring schedule and plan to help focus monitoring efforts on subgrantees.
           A plan would help the Georgia Emergency Management Agency better
           determine the resources it can commit to monitoring subgrantees and the
           resources it especially needs to meet determined monitoring goals.

           Recommendation #7:

           Require the Georgia Emergency Management Agency to revise and update the
           financial monitoring guide to ensure that it captures relevant and accurate


www.oig.dhs.gov                              16                                     OIG-12-110
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           information necessary to ensure there is a review of subgrantee compliance with
           Federal and State requirements.

           Recommendation #8:

           Require the Georgia Emergency Management Agency to ensure that subgrantees
           develop and sustain an inventory control system that meets Federal
           requirements.

           Recommendation #9:

           Require the Federal Emergency Management Agency to enhance its monitoring
           reviews to include a component for following up with and verifying corrective
           actions initiated by grantees as a result of prior audit reports.

           Management Comments and OIG Analysis

           FEMA and the State of Georgia concurred with the intent of all our
           recommendations. FEMA acknowledged the need to improve the process, and
           noted that it would use the report findings and recommendations to strengthen
           program execution and performance measurement to make these programs
           more effective and efficient. As with our prior audit, Georgia disagreed with our
           findings but agreed with all our recommendations and acknowledged that
           improvements are needed. Our report includes the criteria and evidence to
           support these findings and form a basis for our recommendations. Thus, we
           expect the State to work with FEMA to improve its management, performance,
           and oversight of these grant programs.

           Georgia disagreed with our conclusion that it could not demonstrate quantifiable
           improvement and accomplishments that reduced its vulnerability to terrorism
           and natural disasters. Although GEMA officials understood our objective, the
           State did not provide documentation to support the assertions, examples, and
           claims made in its comments to our report.

           One goal of SHSP/UASI grant funding is to demonstrate that a State is using the
           funding to enhance its capability to prevent, deter, respond to, and recover from
           emergencies. To show that Georgia used grant funds to enhance this capability
           and its performance, we made numerous requests for supporting evidence.
           Although Georgia responded to these requests, it was unable to provide logical,
           readily accessible, and sufficient evidence to support its good use of grant funds.
           Instead, the State focused its responses on its efforts to reduce vulnerability in
           emergencies. Therefore, only anecdotal evidence could be used to assess

www.oig.dhs.gov                                17                                      OIG-12-110
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           whether it demonstrated good use of funds to enhance capability and
           performance. As a result, we could not quantifiably verify Georgia’s assertion
           that SHSP/UASI grant funding made it more prepared for emergencies.

           We determined that Georgia’s program objectives were not specific and were
           too general to be used to quantify the results of its efforts. Given the nature of
           emergency preparedness, establishing specific program objectives is both a
           FEMA and a State responsibility.

           FEMA and the State both acknowledged the need for improvement in grant
           management and have begun to take action as a result of our recommendations.
           A summary and analysis of FEMA’s and the State of Georgia’s responses follow.

           FEMA and State Responses to Recommendation #1: FEMA concurred with the
           intent of Recommendation #1. FEMA noted that the FY 2012 Homeland Security
           Grant Program Funding Opportunity Announcement encouraged States to
           update their strategies so their goals and objectives align with those in
           Presidential Policy Directive 8 and in FEMA’s Whole Community approach.
           Although not yet required in grant guidance, under the Presidential Policy
           Directive 8 initiative, FEMA has developed better tools to assist States in
           establishing specific and measurable goals and objectives. When updating the
           strategies, goals, and objectives, FEMA encourages States to consider
           collaboration across disciplines, jurisdictions, and agencies in the framework of
           mission areas and capability-based planning. FEMA also offered technical
           assistance to Georgia in its planning efforts.

           To date, Georgia has not provided evidence of measurable progress toward
           enhancing its emergency preparedness capabilities, but it agrees that a clear
           State Homeland Security Strategy and performance measures are essential to
           meeting this goal and efficiently managing grant funds. Georgia stated that it
           had revised the State Homeland Security Strategy and that the first draft was
           under review. The State believes the updated strategy will follow FEMA’s
           guidance to establish specific, measurable, and results-oriented objectives. It
           should be completed and published during 2012, and will be submitted to FEMA
           at that time. In addition, the State reported it would review the UASI strategy
           before the end of 2012 and ensure that it meets FEMA requirements and
           guidance.

           OIG Analysis: FEMA’s planned corrective actions, once implemented, should
           resolve the recommendation. This recommendation will remain open and
           unresolved until we have reviewed the revised strategy, the FY 2012 Homeland
           Security Grant Program Funding Opportunity Announcement, and evidence that

www.oig.dhs.gov                                18                                       OIG-12-110
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           FEMA’s technical assistance to Georgia has improved the State’s planning
           efforts.

           FEMA and State Responses to Recommendation #2: FEMA concurred with the
           intent of the recommendation and agreed to work with Georgia to ensure that
           the State uses all available resources to carry out grant projects effectively and
           use funding efficiently. FEMA will provide support to ensure that the State
           strategy and subsequent preparedness grant applications align with the agency’s
           core capabilities, the State Preparedness Report, and Georgia’s Threat and
           Hazard Identification and Risk Assessments. As a result, Georgia will be able to
           measure progress against a common set of core capabilities established in the
           National Preparedness Goal. Georgia responded that GEMA uses and will
           continue to use the Overall Readiness Index and other processes to both gauge
           its preparedness for emergencies and guide its progress toward preparedness.
           Georgia’s response to Recommendation #1 also applies to this recommendation.

           OIG Analysis: FEMA’s planned corrective actions, once implemented, should
           resolve the recommendation. This recommendation will remain open and
           unresolved until FEMA provides evidence that it has ensured that the State
           strategy and subsequent preparedness grant applications align with the FEMA
           core capabilities, the State Preparedness Report, and Georgia’s Threat and
           Hazard Identification and Risk Assessments. This evidence should demonstrate
           that GEMA’s Overall Readiness Index is aligned with FEMA grant guidance and,
           until FEMA issues guidance on them, can be used to develop performance
           measures.

           FEMA and State Responses to Recommendation #3: FEMA concurred with the
           intent of the recommendation and will work with the State of Georgia to ensure
           that the State improves subgrantee award protocols and processes to align them
           with agency guidance and regulations. The GEMA Director will be required to
           complete a policy for subgrantee awards that aligns with grant guidance
           timelines and regulations. FEMA expects the revised subgrantee award policy to
           be submitted by August 31, 2012.

           GEMA believes it is meeting FEMA deadlines for executing subgrantee awards
           and noted it will remain a good steward of this Federal funding. The State
           contends that we calculated the end of the 45-day obligation period incorrectly
           and that we mistakenly reported 80 percent of FY 2008–2010 HSGP grant
           funding was not obligated, as required, within 45 days of receipt of grant funds.
           According to Georgia, the start of the 45-day period should be the date it
           receives FEMA funds. However, according to FEMA’s grant guidance, “Upon
           approval of an application, the grant will be awarded to the grant recipient. The

www.oig.dhs.gov                                19                                     OIG-12-110
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           date that this is done is the ‘award date.’ The State’s pass-through period must
           be met within 45 days of the award date for the HSGP.”

           State officials believe they met the 45-day funding obligation requirement
           through award letters the Governor of the State of Georgia sent to subgrantees.
           However, those letters did not meet all funding obligation requirements in
           FEMA’s HSGP Grant Guidance. Furthermore, because it believes it met the
           requirement, GEMA contends that the late obligations and second notifications
           were not relevant. However, the second notification is relevant because, unlike
           the Governor’s award letters, the second notification satisfies all FEMA
           requirements related to obligation of passthrough grant funds.

           OIG Analysis: FEMA’s planned corrective actions, once implemented, should
           resolve the recommendation. This recommendation will remain open and
           unresolved until we have reviewed the revised policy document. The actions
           must demonstrate that GEMA has assessed and streamlined the current
           processes and procedures involved with the execution of subgrantee awards to
           expedite and obligate funds according to the prescribed timeline.

           FEMA and State Responses to Recommendation #4: FEMA concurred with the
           intent of the recommendation and will work with Georgia to ensure that the
           State formally notifies subgrantees of the requirements to use Federal, State,
           and local procurement guidance and regulations as standards for purchasing or
           acquiring equipment and services. The GEMA Director will be required to send
           formal notification to existing subgrantees and add language to future award
           documents that formally notifies subgrantees of the requirement to follow
           Federal, State, and local policies and standards for procurement of services and
           equipment. FEMA expects to receive evidence of this formal notification by
           August 31, 2012.

           Georgia is confident the binding agreements signed by subgrantees contain
           language that clearly notifies grant recipients of procurement requirements. The
           State further contends it substantially monitors subgrantees. Thus, in addition
           to this monitoring, the contractual obligations of subgrantees ensure their
           compliance with Federal and State laws, grant guidance, regulations, circulars,
           and other requirements. The subgrantee agreements also clearly set forth
           penalties for noncompliance and corrective actions. We maintain that, although
           the agreements contain this language, the State would not be able to identify
           instances of noncompliance because of our reported limited monitoring of
           subgrantees.




www.oig.dhs.gov                               20                                      OIG-12-110
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           OIG Analysis: FEMA’s planned corrective actions, once implemented, should
           resolve the recommendation. This recommendation will remain open and
           unresolved until we receive support showing that GEMA is notifying all entities
           awarded HSGP funds of the requirement to use and follow Federal, State, and
           local procurement policies and standards required to purchase or acquire
           equipment and services.

           FEMA and State Responses to Recommendation #5: FEMA concurred with the
           intent of the recommendation and agreed to work with the State to ensure that
           a review of all grant-funded purchases using FY 2008–2010 SHSP and UASI grant
           funds of $100,000 or more. The GEMA Director will be required to complete this
           review to ensure that proper procurement procedures were followed, including
           sole source requirements. GEMA’s response also indicated that, by the end of
           2012, the State will endeavor to identify and review such awards for the noted
           grant years to ensure that procurement regulations and procedures were
           followed.

           OIG Analysis: FEMA’s planned corrective actions, once implemented, should
           resolve the recommendation. This recommendation will remain open and
           unresolved until FEMA provides evidence that GEMA has completed a review of
           all grant-funded purchases of $100,000 or more using FYs 2008–2010 SHSP and
           UASI grant funds. This review should include purchases made as sole source
           procurements and should verify that the sole source procurement was justified.

           FEMA and State Response to Recommendation #6: FEMA concurred with the
           intent of the recommendation and will work with the State to develop a program
           monitoring schedule and methodology to maximize monitoring efforts according
           to requirements set forth in 13 CFR. The GEMA Director will be required to
           submit the revised subgrantee monitoring plan to FEMA for review within 90
           days of the issuance of this report.

           GEMA noted that the position responsible for program monitoring is currently
           vacant. As soon as practical after filling this position, GEMA will establish a
           schedule to conduct program monitoring visits. GEMA will also continue to
           contract with professional associations to assist with monitoring. Finally, it will
           develop and implement a program monitoring plan by the end of 2012.

           OIG Analysis: FEMA’s planned corrective actions, once implemented, should
           resolve the recommendation. This recommendation will remain open and
           unresolved until we review GEMA’s program monitoring schedule and plan. The
           plan must identify the resources GEMA needs to monitor subgrantees and to
           meet determined monitoring goals.

www.oig.dhs.gov                                 21                                       OIG-12-110
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           FEMA and State Responses to Recommendation #7: FEMA concurred with the
           intent of the recommendation and agreed to work with the State to ensure
           GEMA revises its financial monitoring guide for effective oversight of
           subgrantees and compliance with Federal and State requirements. The GEMA
           Director will be required to complete the corrective actions by August 31, 2012.
           GEMA also responded that, by September 2012, it would comply with this
           recommendation and develop and implement a more robust financial
           monitoring guide that includes FEMA requirements.

           OIG Analysis: FEMA’s planned corrective actions, once implemented, should
           resolve the recommendation. This recommendation will remain open and
           unresolved until we review the updated financial monitoring guide to verify that
           it captures the information necessary to ensure a review of subgrantees’
           compliance with Federal and State requirements.

           FEMA and State Response to Recommendation #8: FEMA concurred with the
           intent of the recommendation. FEMA will work with the State to ensure Georgia
           requires subgrantees to develop and maintain an inventory control system that
           complies with Federal requirements. The GEMA Director will be required to
           complete the corrective actions by August 31, 2012. GEMA agreed to develop
           further guidance documents and training for subgrantees on inventory control
           policies to be instituted for FY 2012 grant awards.

           OIG Analysis: FEMA’s planned corrective actions, once implemented, should
           resolve the recommendation. This recommendation will remain open and
           unresolved until FEMA provides support that GEMA’s subgrantees have
           developed and maintained an inventory control system that complies with
           Federal requirements.

           FEMA and State Responses to Recommendation #9: FEMA concurred with the
           intent of the recommendation and is updating its monitoring protocols and plans
           to incorporate audit corrective actions as part of its onsite reviews of grantees.
           The revised protocols should be finalized no later than August 31, 2012. GEMA
           had no reply to this recommendation, but agreed to cooperate with all FEMA
           program monitoring visits and requests for information.

           OIG Analysis: FEMA’s planned corrective actions, once implemented, should
           resolve the recommendation. This recommendation will remain open and
           unresolved until FEMA provides evidence that the agency has enhanced its
           monitoring reviews to include a component for following up with and verifying
           corrective actions initiated by grantees as a result of prior audit reports.

www.oig.dhs.gov                                22                                     OIG-12-110
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This report provides the results of our work to determine whether the State of Georgia
   spent SHSP and UASI grant funds (1) effectively and efficiently and (2) in compliance
   with applicable Federal laws and regulations. We also addressed the extent to which
   funds enhanced the State’s ability to prevent, prepare for, protect against, and respond
   to natural disasters, acts of terrorism, and other manmade disasters.

   The HSGP and its four interrelated grant programs fund a range of preparedness
   activities, including planning, organization, equipment purchase, training, exercises, and
   management and administration costs. However, only SHSP and UASI funding,
   equipment, and supported programs were reviewed for compliance. The scope of the
   audit included the SHSP and UASI grant awards for FYs 2008, 2009, and 2010. We
   reviewed the plans developed by the State to improve preparedness and all-hazards
   response, the goals set within those plans, the measurement of progress toward the
   goals, and the assessments of performance improvement that result from this activity
   (see table 5).




www.oig.dhs.gov                                23                                      OIG-12-110
                               OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


       Table 5: State of Georgia Homeland Security Grant Program Awards

             Funded Activity             FY 2008         FY 2009        FY 2010         Total
       State Homeland Security
                                        $ 21,880,000 $ 20,637,500 $ 19,229,905 $ 61,747,405
       Program
       Urban Areas Security
                                          14,220,000    13,509,150      13,522,973     41,252,123
       Initiative
                  Total                 $ 36,100,000 $ 34,146,150 $ 32,752,878 $ 102,999,528

       Citizen Corps Program                 384,305          382,020     328,757        1,095,082
       Metropolitan Medical
                                             642,442          642,442     634,838        1,919,722
       Response System Program
               Grand Total              $ 37,126,747 $ 35,171,112 $ 33,716,473 $ 106,014,332
       Source: DHS OIG.

   We relied on FEMA’s computer-processed data that contained information on the grant
   funds awarded during FYs 2008 through 2010. We conducted limited tests on these
   data to source documentation to ensure that the data were sufficiently reliable to be
   used in meeting our audit objective.

   We visited the designated State Administrative Agency, GEMA, and the following 15
   subgrantees that had been awarded funding in FYs 2008, 2009, and 2010.

   State Agencies

   •        Georgia Department of Natural Resources
   •        Georgia State Patrol
   •        Georgia Information Sharing and Analysis Center
   •        Georgia Bureau of Investigation
   •        Georgia Public Safety Training Center

   State Universities

   •        University of Georgia
   •        University of Georgia Police Department




www.oig.dhs.gov                               24                                     OIG-12-110
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Local Jurisdictions

   •       City of Macon Police Department
   •       City of St. Mary’s Fire Department
   •       City of Savannah-Chatham County Metro Police Department
   •       Athens-Clarke County Fire and Emergency Services
   •       City of Marietta Fire Department
   •       City of Douglasville
   •       City of Gainesville Fire Department
   •       Muscogee County Sheriff’s Office

   At each location, we interviewed responsible officials, reviewed documentation
   supporting State and subgrantee management of grant funds, and inspected selected
   equipment procured with grant funds. We also interviewed officials awarded UASI
   grant funds to determine whether funds were expended according to grant
   requirements and priorities established by the State.

   We conducted this performance audit between August 2011 and January 2012,
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.




www.oig.dhs.gov                              25                                     OIG-12-110
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   Appendix B
   FEMA Management Comments to the Draft Report
                                                                                          U.s. IHp"rfm<ft' oIlt.",.I"~d S«.rity
                                                                                          Ww.i n ~ton.
                                                                                                     DC 20-172




                                                                                         FEMA
                                                      JON 1 2 2lH2



             MEMORANDUM FOR:                 Anne L. Richards
                                             Assistant Inspector General for Audits
                                             Office of Inspector General

             FROM:                       kMJavid J. Kaufinan      ~I~                e;,'Ve<
                                         V Director
                                           Office of?oliey and Program Analysis

             SUBJECT:                        Conunents to OIG Draft Report , The Swte o/Georgia's Management
                                             o/Stale Home/and Security Program and Urball Areas Security
                                             /Jlilialil'Cs Graws Awarded D"rillg Fiscal Years 1008lhrough 1010


             Thank you for the opportunity to comment on the draft report. The findings in the report wi!] be used
             to strengthen the effectiveness and efficiency of how we execute and measure our programs. We
             recognize thc need to continue to improve the process, including addressing thc recommendations
             raised in this report, OUT responses to the recommendations arc as follows:

             OI G Reco mmendation # 1: We recommend that. the Federal Emergency Managemcnt Agcncy
             Assistant Administrator, Grant Programs Directorate assist the Director of the Georgia Emcrgency
             Management Agency and the Urban Area Working Group in developing a comprehensive Homeland
             Security Strategy that:
                 a. Includes specific, measurable. and resul ts-oriented objectives in compliance with thc most
                    recent DHS guidance
                  b. Ensures that objective completion dates are consistently listed in the strategies, and are
                     eurrent and realistic for achieving cach objective

             FEl\( A Res ponse: FEMA concurs with thc intent of this recommcnd3lion.

             The FYI2 Homeland Security Grant Program (HSGP) Funding Opportunity Announcement (FOA,)
             provided eneouragcment to states on updating their homeland security strategies so that their goals
             and objectives align to Presidential Policy Directive 8 (PPD-8) and the Whole of Community
             approach.

             The FOA states that Sllile alld Urban Area Homciallil Security Stmtegies sltould be updated e~ery
             t>l"O (2) years til a minimum to ensure Ilttll Ilteir Slrategies contilllte IQ address all homelalld security
             mission areas (prel'CIII, pro/ecl agaillsl, respond 10. recol'Cr/ram, mtd miligale aff IIO=ards) and
             rej/OCI how Iheir goals and objeclives aliglllQ I'I'D-8 and Ihe IV/lole CommUllity approach. When
                                                                                         ........ ,r..... ,,.,..




www.oig.dhs.gov                                                    26                                                             OIG-12-110
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              revisiting and updating the strategies. goals, and objectives. Slates and Urban Areas are strongly
              encouraged to consider collaboration across disciplines,jurisdictions. and agencies within the
             framework ofthe mission areas and based on a capability-based planning approach.

               The FY 2011 and FY 2012 guidance to grantees sets funding priorities and includes specific
              objectives, measures and reporting requirements. Furthermore, FEMA will offer technical assistance
              to the Stale of Georgia to help with their planning efforts. FEMA wi1l work with Georgia in
              developing an updated stale strategy which includes objectives that are more specific, measurable,
              achievable, resu1ts-oriented, and time limited. Completion of the enabling objectives in the strategy
              will lead 10 the accomplishment of their associated goal.

             An updated strategy meeting the recommended criteria will be submitted into the Grants Reporting
             Tool within 90 days of this report. FEMA requests that the recommendation be resolved and open
             pending completion of the stated corrective actions.

              OlG R«ommendation #2: We recommend that the Federal Emergency Management Agency
              Assistant Administrator, Grant Programs Directorate require the Georgia Emergency Management
              Agency to align the Overall Readiness Index with FEMA grant guidance., so the index can be used as
              a basis for developing perfonnance measures until the Federal Emergency Management Agency
              issues guidance.

              FEMA Response: FEMA concurs with the intent of this recommendation.

               FEMA will work with the Stale of Georgia to ensure that the state utilizes all available resources 10
              support effective perfonnance of grant projects and funding. Specifically, FEMA will provide
              support 10 Georgia to ensure that the state strategy and subsequent preparedness grant applications
              align with the FEMA core capabilities, the Georgia State Preparedness Report (SPR), and Georgia
              Threat and Hazard Identification and Risk Assessments (THlRA). Ensuring integration and
              consistency oflheir State strategy and grant applications with FEMA doctrine and policy will allow
              Georgia 10 measwe progress against a common set of core capabilities established in the Nalional
              Preparedness Goal.

              FEMA recommends that this recommendation be resolved and open pending the submission and
              subsequent review of Georgia FY 2012 HSGP application.

              OIG Recommendation 1#3: We recommend that the Federal Emergency Management Agency
              Assistant Administrator, Grant Programs Directorate require the Georgia Emergency Management
              Agency to assess and streamline the CUlTCIlt processes and procedures involved with the execution of
              subgrantee awards to expedite and obligate funds according 10 the Federal Emergency Management
              Agency prescribed timeline.

              FEMA Response: FEMA concurs with the intent of the recommendation. FEMA will work with
              the Stale of Georgia to ensure that the state improves subgrantee award protocols and processes
              aligning with the guidance and regulations. The Director of the Georgia Emergency Management
              Agency, the State Administrative Agency (SAA), will be required to complete a policy for




www.oig.dhs.gov                                               27                                                       OIG-12-110
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security




        subgrantee awards that aligns with the required timelines and regulations in the grant guidance. The
        revised policy document should be submitted to FEMA for review by August 3 1, 2012.

        FEMA requests that the recommendation be resolved and open pending completion of the stated
        corrective actions.

        OIG Recommendation #4: We recommend that the Federal Emergency Management Agency
        Assisl8nt Administrator, Grant Progrwns Directorate require the Georgia Emergency Management
        Agency to notify all entities awarded Homeland Security Grant Program funds of the requirement to
        use and follow federal, State and local procurement policies and standards as required for purchasing
        or acquiring equipment and services.

        FEMA Response: FEMA concurs with the intent of the recommendation.

        FEMA""';1I work with the State of Georgia to ensure that the State fonnally notifies subgrantees of
        the requirements to use federal, State, and local procurement guidance and regulations as sl8ndards
        for purchasing or acquiring equipment WId serviCe:!!. The Director of the Georgia Emergency
        Management Agency, the State Administrative Agency (SAA), will be required to send formal
        notification to existing subgrantees and add language to future subgrantee award documents that
        fonnally notifies subgrantees of the requirement to follow Federal, State, and Local policies and
        standards for procurement of services and equipment.

        Evidence of the formal notification and revised award documentation should be sent to FEMA for
        review by August 31. 2012. FEMA requests that the recommendation be resolved and open pending
        completion of the stilted corrective actions.

        OJG Reeommendation #S: We reoommend that the Federal Emergency Management Agency
        Assistant Administrator, Grant Programs Directorate encourage the Georgia Emergency
        Management Agency to complete a review of all grant-funded purchases using fiscal years 2008,
        2009, and 2010 State Homeland Security Program and Urban Art:as Security Initiative grant fimds of
        S100,OOO. This should include those purchases made as sale source procurements and verify that
        sole source procurement was justified.

        FEMA Response: FEMA concurs with the intent of the recommendation.

        FEMA will work y,;th the State of Georgia to ensure that a review of all grant-funded purchases
        wing FY 2008, 2009, and 2010 Stille Homehmd Seewity Program and Urban Areas Security
        Initiativc grant funds ors 100,000 or more. The Director of the Georgia Emergency Management
        Agency, the SAA, will be required to complete a review of all 2008,2009, and 2010 grant purchases
        over S100,000 to ensure that proper procurement procedures were followed, including sole source
        requirements.

        The results of the review will be submitted to FEMA by August 31, 2012. FEMA requests that the
        recommendation be resolved and open pending completion of the stated corrective actions.




www.oig.dhs.gov                                          28                                               OIG-12-110
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security




       OIG Recommendation #6: We recorrunend that the Federal Emergency Management Agency
       Assistant Administrator, Grant Programs Directorate require the Georgia Emergency Management
       Agency to develop a progrrun monitoring schedule and plan to help focus monitoring efforts on
       subgrantees . A plan would help the Georgia Emergency Management Agency better determine the
       resources that it can commit to monitoring subgrantees and what resources it especially needs to
       meet determined monitoring goals.

       FEMA Response: FEMA concurs with the intent of the recommendation.

       FEMA will work with the State of Georgia to ensure that the State develops a program monitoring
       schedule and methodology to ensure monitoring efforts are mllXimized and in accordance with
       requirements set forth in 13 CFR. The Director of the Georgia Emergency Management Agency, the
       SAA, will be required to submit the revised subgrantee monitoring plan to FEMA for review within
       90 days of the issuance of this report. FEMA requests that the recommendation be resolved and open
       pending completion of the stated corrective actions.

       OiG Recommendation #7: We recommend that the Federal Emergency Management Agency
       Assistant Administrator, Grant Programs Directorate require the Georgia Emergency Managt.'1llet11
       Agency to revise and update the financial monitoring guide to ensw-e that it captures relevant and
       accurate information necessary to ensure there is a reviev.r of subgrantee compliance with federal and
       State requirements.

       FEMA Respoose: FEMA concurs with the intent of the recommendation.

       FEMA will work with the Siaic of Georgia to ensure that the State revises its fmancinl monitoring
       guide to ensure effective oversight of subgrantees and compliance with federal and State
       requirements.

       The Director of the Georgia Emergency Management Agency, the SAA, will be required to
       complete the corrective actions described by August 31, 2012. FEMA requests that the
       recommendation be resolved and open pending completion of the stated corrective actions.


       OIG Recommendation #8: We recommend that the Federal Emergency Management Agency
       Assistant Administrator, Grant Programs Directorate require the Georgia Emergency Management
       Agency to ensure that subgrantees develop and sustain an inventory control system that meets
       federal rcquirl.-nlcnts.

       FEMA Response: FEMA concurs with the intent of the recommendation.

       FEMA will work with the State of Georgia to ensure that the State requires subgrantees to develop
       and maintain an inventory control systems that complies with federal requirements.

       The Director of the Georgia Emergency Management Agency, the SAA, will be required to
       complete the corrective actions described by August3!, 2012. FEMA requests that the
       recommendation be resolved and open pending completion of the stated corrective actions.




www.oig.dhs.gov                                         29                                               OIG-12-110
                                  OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




        OlG RecommendatioD #9: We recommend that the Federal Emergency Management Agency
        Assistant Administrator, Grant Programs Directorate require the Federal Emergency Management
        Agency to enhance its monitoring reviews to include a component for following up with and
        verifying corrective actions initiated by grantees as a result of prior audit reports,

        FEMA Response: FEMA concurs with the intent of the recommendation.

        FEMA is currently updating its monitoring protocols and plans to inoorporate audit corrective
        actions as part of the review while on· site with grantees.

        The revised protocols should be finalized no later than August 31 , 2012. FEMA requests that the
        recommendation be resolved and open pending final approval ofrevised monitoring protocols.

        Again, we thank you for the opportunity to review your findings and recommendations contained in
        your OIG Draft Report, The Stare afGeorgia ',$ Management of Stare Homeland Security Program
        and Urban Areas Securjty Injtjatives Grants Awarded Durjng Fiscal Years 2008lhrough 20l0.
        Please feel free to contact Gina Norton of our GAO/OIG Audit Liaison Office, at 202~646-4287,
        with any questions or concerns.




www.oig.dhs.gov                                         30                                                 OIG-12-110
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                31                    OIG-12-110
                                             OFFICE OF INSPECTOR GENERAL
                                                   Department of Homeland Security


   Appendix C
   State of Georgia Management Comments to the Draft Report
                                      G E ORGIA EMERGENCY M ANAGEM E NT A GE NCY
                                              G EORGIA OFF ICE O F HOM E L A N D S i: CURITY


       N -'T HAN D!:"'~                                                                                                         CHAR L I:Y ENGL I SH
       GOVERNOR                                                                                                                           DIRECTOR




                                                                St3te of C.enrgia
                                                                  Rc..~pons~ to
                                                          Offi£~ of Imptttor Gtneroll
                                                      [)epartrocnt of Humdand S~nll'ity
                                                             Audit Rtport l<:ntitlcd
                                                    The Stall! of Georgia 's ,lfnnagemelft of
                                                    State Homeland Securilj' Progrum alld
                                                    lirban Area Security Initiative Grants
                                                         Awarded During Pi.l·cal year...·
                                                               2008 through 2010

                                              Exhibit C, Georgia Comments to Audit Rtpurt

               The Goorgia E merge ncy Ma nagement Agcney/Holl1elano Security (riEMA) ha~ admini~tered homeland
               5ecurit} grants sinn' 1999 ....n bclrnlf ofthc Statc. GEt.1A a pprecimes th e flpproprinrion ofthe.'Ie fllnd~ by
               Congress. and has worked diligently through th e years to apply these fllll d ~ toward The gOAls of red\lcing
               Georgia 's vulnerability to terrori ~m and mhancing emergcncy res po nsc. A comprchcnsive bliT Sl ill
               incomplete list of the response capabilities created or enhanced b)· the State thrllugh the~e grants fo llo ws
               l>elow, al ong with spec ific example s of how those capabilities have had impllet in Goorgi a. IIowev.:r, Ihe
               Stnt~ re.<;pectfully yet ~tmngly asserts that this audit report does a disservice to Congress, the State, and
               the ci tizc ns 1'"l108e t>l;<es h~,·e ~upported the~e elfort.~ by stating th at "Georgia could not demonstrate
               '1uanti liab lc improvcrnelll mw flcro mpli shmcms ttl rectuce it~ vulnerability to terroris m and. naNul
               dislI.I't<:·rs ."' ·llI b slalcmcn( i~ inflHilllllHtory, irres ponsib le, and (lff.",~i\·~ to tl,e StIlte and ID th ose in th e
               hllmeland socurity community who benefit every day from the C(lu ipmcn l, trllin ing, plllll> and ."Y"tcm .~ thn!
               homeland security fUDd~ ha... c pro~· idcd (0 Guorgia's fir>.t rcspmlSc oom mnnity over th e }"(:MS. Th e :o\mte
               is not simp ly satisfied but proud of thc aceomplish ml."TIts &"l ined by this timd ing, and it is indispmabk
               that Georgia' s vulnerabilities to terrorism an d natural ha:£ard::i Il<Ive b"l,m r~d n~cd .

               ·J1lffiUgh GEMA, HSGP grants ha~e bui lt and supponed such things as the Georgialnforrnation Sharinl~
               l!lld A lIlll.>'-"i~ Center (GiSAC), Georgia's fus ioll center which has initi ated numerous investigations
               resu ltin g ilL apprchcllsion, I1JO~t rc~ently the alTe~t~ of indh·iduals in north Georgia intent on chemical and
               e"pl...,~ivc atlacKs a f\aiJl~t federal and state facil it ies in Atlanta. ( iISAC ha~ long been considered by the
               Department ..., r HUlIlehUld oceurily a "ocst practice" center and wll~ pre~ented the Fmirm Center of tile
                Year Award by Sc;crctary NlIp<..lli tanu in April o( th is ),c;'Ir. OI SAC reduces Gcorgia'3 vu lncrnhility Qn d
               makes the Slate safer. "Du:se gr<lllts hllw al ~u bee" applied to [," ild and SI JiAAiu Georg ia Search wld
               Rescue (Gs.,\R) collapsed strllcture respons e tca m, loc~ te" Ihrollgh llll Lth e ~taLc, a .:apahility nonexJ,telit
               ill Georgia before the grant s became avail~ble. These t~am~ ,,~ v~ rc~polldct1 In 1I1J 11I erou~ ilie idelll~
               through the year;:, such as the Bluffton University Baseball TcmJl bus ~fIIsh ill AU antrl in 20()7, the
               tornados in northwest Georgia one year ~o IIIId in duwlltown Al lanta in 2008, and olher incidelils
               requi ring a high le\'el of expert ise and technical equipment. These t':lIl11 S ab ... ....,d ll~c vulnerability ami
               make Uoorgia safer. The llHS Office of Bombing Preven tion also considers Georgia a " be~t pra;;tio.:c~
               state regarding the Staw's Lmpro\·ised hxp los ive Dcvic~ planning and bomb management prOl.lmm, citing
               Georgia 's practices to oth ers llatiullWilic. ·lllCSt.: efi'orts also reduce vuln~ rab il ity and make Goorgia safer.


                                                                     (js:.,j
                                                                      .  ......
                                          Post Office BOll 18055 • At lanta, Georgi>:! • 30316-0055
                                (404) 635-7000 • TolI· free in Georg ia 1-BOO-TRY-GEMA . Ww'li.gema.ga.goll




www.oig.dhs.gov                                                            32                                                                    OIG-12-110
                                            OFFICE OF INSPECTOR GENERAL
                                                  Department of Homeland Security




             These are only a vcry few cx.runples that the Smte presents to refute the d ;~ i"gelllIOU8 a5Rcrtirm th at th e
             st~t'" ~~nnul de momtrale a reductio n in vulncrahility. E" cn so, the t.1atc rcspects and takes vcry seri Ol.l$ly
             the lIudi ll'roc~.~, il a8 carefully re\' i~wed this audit repon. and submits 1his n:ply to the audit tinrl ings.
             nle Stilte will arldre~s all bo l d~d Cll.teg()fie~ nhhe report, but will address Fin ding 1 an d Fin ding 2 in one
             ~ecti nn, a8 the issue of performance measures is integral io the Stale's strategic planning effort.

             Aliditor's J<' lndlng 1:

             The   S I ~Lc'S   SHSP au t! I!ASI slratcg ie;] shou ld include memurab le objectives.

             Auditor'" )<'iudillg 2:

             G[!~1A     should develop adequate p<;rforrnancl'            me~sures 10   lI~~C.'jS   overall Siale capabilities find
             prcp<lrudrn:;~.


             Enellti~'c    Summ ary of RCOIpr",_,,, 10 Auditor's Finding 1 and 2:

            Th e State of Georgia does not concur with Auditor's Findin gs 1 ~nd 2 for the fullow ing            rca~ulls:


            FEMA approved G"",rgill', 20116 SlRlc Homcland Security SlI'lIIcgy. and the Struc hilS complied with th ~
            rt:qui r~ltI ent~ which wcre II condition precedent to rec~i\'illg th e grant a wards which include annual
            re~ iewa of the Stale Strategic Plan. The 01G report cites that " FEI\·U\ has nol prov id ed clear guidance to
            States for development of perromlance measures." ['or the pc:riod rt:"iewed b). the audit, fEMA' s grant
            guidrul~e did not requi re mcasu~.ablc objedi ves; however th e Slale oontinu..,d to apply flmds to meet
            State Strategic Plan objectives that are Ol..,a~u ritbll) by 11 "aricly of standards. Since 2005, FE/'.-tA ha.s
            inili~ted no few",," l.h anthrcc I' crfofJlJ 8!lce llleasnrC5 pilOl programs, none of whic h were fully develo ped
            and impl cmen lcd. ThCSl.' included tJl~ "Nalioll al Prejlaredlles.~ System." th e "Pilot Capabilities
            A.;se~m","l" Rnd ''Cost to Capab ility." ·l1le ~tate actively participated in the development of two of these
            programs, a nd tho UASI the third, investing considerable time and effort on ly to so:>: each effort
            ahandnned by FEMA. While PEMA continues to struggle with prov id ing guidi:lJl~e for apprupri~le
            measllreable objecth'es, the State has applied funds in accordancc wilh ~ ll guidallCc ~ud to cn:atc,
            improve or enhance capabilities as defin~d and prioritized by FTI1A. Ut,1 yCfIl" FEMA initiated H new
            system of strategy d~ve lopment wilh pCrf0nl18n<.:e mC!l, "ru~ IImkr Presidential Prel'Bredll~ Dilective lI,
            and the Slate is ml;:(ting those requ in:"'~nL' .... il h thc dcvel"pmcllt of II lIew State Strateg ic Plan with
            pt:rfonn~Il~~ m e~s ur6 liJat arc ba3Cd Upol l the l alc~t FEMA gu id ance related to the Stale Preparedness
            ReJlort and the Threat and l-illLard Identification Risk Assessmcnt (fllIR..... ).

            E\'en so, lho State conte nd. that the Slat e Slrat~gic Plall dot:!< oollt ailllH clhllfllblc objec ti\"cs. While it is
            nutabl~  Ihat DHS a",1 F&\1A gllidallCC amI priorities elmngcd each )"t!ar, th~ State c()l1~i~te ntl y applied
            Homelaud SC<;: lIrily Grant Progralll (HSGP) funding toward the goals and objectives ~ont aine<l in the
            State Strategic Pl an to enhance cnpab il ities in the areas of rcsponse, prevention, protection and recovery.
            The Stale cOlltend9 tJlat lllallY of these goals. especially those involving response assets that make Georgia
            ~afer, aTe easily quanti fied. For examp le. page 22 of the State Strategic Plan outlines response time
            ohjcctive.; to eve!), location in Georgia for specific SIXCu, lized responst: teams lllill we[~ ~il1J<:r under
            deve lopment or in whic-h capabilitie5 were enhall~eU lIsi,,!; HSGI' rund~ ulldcr lhc p lan as follows:

            Auimal R"' pUll~ Team                                    2. hours
             B\!mb Squads                                            I hour

            Dive Rescue Team                                         2   hOllr~

            Hazardous Materials Tea m                                2   h "ur~

            Heavy Re scue Team                                       2   hour~




www.oig.dhs.gov                                                          33                                                           OIG-12-110
                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security




          Hostage Ncgotilllion Tcom                             I hour
          Incident Management Team                              I hour
          K9 Teams (except K9 Uo mb Team)                       2 ho urs
          K9 Bomb TeBm                                          I hour
          Mubil", Field Forces                                  2 hours
          SWAT / T actical Team                                  I hour
          Georgi~ Se~ rch   & Rescue T~~k Force                 4houN


          In l:muum;tiull willi the fC3PO llSC time measurement, the Sw.te has also dedicated fimds each year to
          upgrading response tellm Ulpilbilitics tu the II<!Jll higher level of ~pabj]ity (IS defined by Nntionallncident
          Mallugemenl System (NL'\1S) typing levels. The measureab le obj ectives are to provide the highest levol
          eapllbility response (Type I) to every location in Georgia wiThin The timefrnme esta blished by the table
          above.

          Additionally, Ihe State applied funds to achieve ~ n: I.1ltin,1y low CQl;\ solution In intcropcrnb il ity wnong
          local and smre publi c safety agencies smtc'l\'ide in deveiopmenL of the (1~urj!.iulnLCropcr1lbiliL)' Nelwork
          and mobile communications plationns to r~spund lu sil.e:s or cmergellcics aJld disaswTl!. Each Publie
          Safety IUIswering I'oint (pSAP) throughout the state ( 149) nu .... haH equipmenL instnlh:d Ihm allow8 ilto
          connect ,>,,,jlh My other I-'SAP statewidl.l as wdl :u; numerou~ slale agcllc)" warniu!1, point.".. With Ihi~
          equipment, each respective PSAP may also connect disparntc ~ystcm~ Hnd frequenek~ lu ill> sys \l.lm LIl
          allow inleroperability with olltsideju ril\dietiun~. As Illis sy~teIll IHl~ mutured, the Sl1lte ha~ developed a
          web-based trainin[!: program lIud is oow luclilll? cxcrci~es to IIIClIlillre the eff~t ivene ss oethe system and
          the tm in"ing.

          The State agr.:.:clI thai a c\cllr Slale Slro.tC!l,Y and pertonnauce mcasures are essential to enhrulce
          capabil itie8 and efficiently lIlanage fund~. While not yet n re<juiremenl in grunt guidance, FEMA has
          rleve10ped bellcr tuo \s Lo a.~s i ~llhc S lu.tc~ in doing so under the I-'I-'D 8 initi3tive. The State beliwes that
          th e HOlm to be cumpleted Stale SUalegic PIau will satisfy this non-mandatory requireme nt.

          Auditor's Fiodiog 3:

          GIlMA ~hould notify and obligate grun t funUs to      ~ ubgnulta!s   more ti mely.

          Euculiv~    Sunullitry ofRes1.olLNC to Auditor's FiadioJt: 3:

          The State docs 1I0t concur with Allditor's Finding 3 for Ihe following reasons:

          The State «Inte nds !.h(lt the auditors calculated the end of Ihc 45-day obligation period in~orr~clly a nti
          illcorrectly stated that 80% of FYO!;-] 0 HSGI-' gl"llnt fundi ng W~.~ not ohli gakd v.ithin 45 dllYli uf rwcipl
          oftlle grallt fuads as reoq uired. But prior to the State' s reply to this finding , the State wishes 10 d~rif}' il,al
          while we view all grant guid ance seriollsly, th e S l~te v.~ ll always ~rror on the ~ id~ of cautiun rcg.urd ing
          stowardship of these funds, and believes mongly tha i ~dhcrcnec lu i:!I""lITlIj!.uidllncc and cOlldi li oll~ to
          reduce vulnllI"abilit)' 10 lerrori3lll and enh~ncc n:SpflllSC righ tly lake pru:cd~nec u~' cr Limdy ubligation.

          (JJ..!MA did notify and obligarc grants funds witb in 45 days nfreciiipi of the FY08, 09 and 10 HSGP fl.ln<.h
          as required.




www.oig.dhs.gov                                                    34                                                              OIG-12-110
                                        OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




                    FYUI! lJHS HSUP grant guide, O bligation of Funds, p. iii, .'lID.tes: The SAA must obligate !lU
                    percent orthc funds IIwarded unde r SHSI' and UASI to local wlits of govern ment within 4S days
                    of UCiI'.;pt nr rUlld~ . . (Eln pha.~ i, adtkd).

                    f Y09 D1JS J[SGl' gr~nt guide, Aw~rd Administr.ttioD Informalion, A. Nolice oJ Award, p. 46,
                    <rta1c.~ : The SAA must obli£atc Ill: I=\t 80 perce nt of the funds 1I\\lIlJ"ded under SIlSP and UAS1 to
                    local units of go"cmm ~nt within 45 day.~ of UCil'.ipt of the funds. (F.mpha.~i.~ added).

                    (lYIO DIIS J[S GP grant gui de, Award Administration Information, A. Notice of Award, p. 51,
                    stales: Ihe SAA must obligate at least 80 percent of the funds awarded under SHSI', lIASI and
                    OPSG to local units of go,'ernment within 4S days of receipt of the funds." (Em phas is added).

           TIl<: Sla!e wnlend~ tlmt 1llO: 4S-day period 10 obligaw fumJ.s starts 011 the date of I\:ceipt of the grunt
           funding. DHS ~pl!ci[jes in lhe FY09 Homelan d Se~urity Gm llt Program Guil!anw uud Application Kit,
           pnge 46, footnole 7, tlrnt "receipt of funds meUIlS Ihe Oute on whkh funds III"\: Ilvuilublc (e.g., u11 ~p~-.:illl
           conditions prohibiting obligllli(m, ~xpenditure and draw duwn have bl!~ n remu\·ed.)" Until th~ Ilwunl
           doc u m~ntati nn is n::cei,,'cd hy the Statc , i.e., aVllilllblc to be downltllldcd Ilml/or pri nted, nn funds can he
           ,,,'~ilabk to or rect;:ived by the ':lntc       Ilnlil th e State accepts the aWllld of fu nding by .~igning and
           relurning the G171nt Award }.· otice, the f" n.!s arc nut .. vailable. n ,C State mCl\l>ure.; the 45-day period
           from the date th ~t the Grant Award Notice (GAN) is received, which is earlier than what the Slate
           contends to be the required date when the funds are available to the State (after me Stale has accepted and
           signed the GAN).

           The audit report's dates for "funds req uired to be obligated" are incorrect because thoso;;: dates Ille not 45
           dB.y.~ after Georgia recei\'.xlllH~ giant fi.mding or even 4S days niter the State rccei"'ed Ihe GrWlt AWllnl
           N,)l;cc. For example, the dille thllt the auditors ~pccify 115 the "funds required to be oblig,ated by" date for
           lh~ FY08 HSGP wuuld haVlll\ l1uw ~,] th~ ':lAle onl)' 19 dlly.~ al"Lcrthe reeeil't ofllie Cirant Aw ard Notice to
           obligllte local share funding. The FY08 GAN wa~ luaded onlo the grunt ~ysll!m. u~ lIilahlc for receipt
           (downlnad hy the Slate), on Se ptcmhcr 19, 2008. AllSumi ng Ilrgucndo Ihllll"e dlltc ofro;;~ipt of the GAN,
           rather than ava ilability of grnnl fllnding, StllrlS the 45-rlay obligation period, the end of1he 45-day period
           after date of receipt of the GAK was November J, 2008, not October 6, 2008, as sTated in the au dit report.
           The Stale lIlet Ille obligation requiremellt withi ll 45 days of !'eeeipt of the GAN and notified L>HSfFEMA
           GPD as required through the Init ial Strotegy Implementation Plan (I SIP) via (jAN 8pedal Condition #16.

           The R"I;u",1 Ilo lifiealio n col umn of Tahle J i ~ al.'lo basel! on e['m ncous ~Iwt Uates. n le State met the
           obligaTion I"Cquire,,,,.,nl. fi,.. lh~ kx:al ~h arc funding hy !!Cnding Ilward letters from Illc Governor of the
           St~te of Geofl:';ia to the su brccipients !Iud Th",rehy eornplelctl lh ... rt;I.juircmellllo uhli !latc gr~nl fumlinl:\
           within 4S days of receipt of the awaro.

           Besides the inllccnrate mcasul'C of the 15-rlay obligation pcriorl, the re arc othc r inacc uraci es in the
           'Timely Obligation of GU nt Funds" section of th e audit repot1_ Tl'lble J is, as stated, baserl on incorrect
           stwt date, so colunm J is inaccurate. Columns 4 and 5 are also inaccurale bilsed on the incorrect start
           time and not relevant to allY grout requirements since the fUllds ha\'e been obli gated prior to the activ it ies
           discussed.

           The paragraph belo w Ihe tuble and Figure 1 on page 9 of t.he audit report contains inaceu rac io:.s and
           mi iirepn::sentutio n8. A~ explainoo 10 Il le uuditun;, the Stale works wilh :;ubredpir."JIt~ tu obtain budget.
           wnrksltccts. Contrary to the audit report this activi ly is ncithcr !In " iniliul re alillCaliml process" Jlor
           "lengthy secoooary revicw prOCC3S bcfom exceuting the grant agreemcnts." Beforc th e Cio\'emor's award
           letters are sent oulto med each grant's 45-day obligaTion JleriIXI, th e It"~nls 10 Ihe subll:o.::ipie nls, the
           prQ.iect (purpose of the grant), program from which nmds are ilwaroed, and lhe flm ding amollnl for each
           £ubrecipient have all beeJl identitied. All of that award infonnation is included in the award letters.
           Th ~r~ is no rcalloc.alion (]flh~ local share fundi ng awurded by letter from the Governor within tile 45-day
           obligation period.




www.oig.dhs.gov                                                     35                                                               OIG-12-110
                                            OFFICE OF INSPECTOR GENERAL
                                                  Department of Homeland Security




          Fi!!.un: I 1l.\U,.'mpll> III iIluslnd.e two revie ..... prOC~5S¢s 3.i1d describe tile State 's processing of th e budget
          ....l)rksh ~cl3 and subgranttt. agr~lll ent as 4 linear process wh~n, in fact, se\'cta] Activities ATe being
          m:comp l i~lu:d ..:oll\:urrO:IIII)' with many ~talr working on the process, Figure I illCOlTectly desc.;nbe~ the
          process, stmillg the GE.\1A lIIanagtnlent "reallocate" funds nuher than "allocate" the grant funds Ihllt
          haye ju.~t !x:1,..,1 uWllfdtd. "GEMA WId subg.rauleCS rev ise a.".'l\rds inTO budget workshoetS" is another
          inl.-om.'d dO.'loeriplion, The budget workshed$ in fact itemize the spcoeific items and costs for the
          5ubgranlJ:e'$ ]Jarticular project and the funding amount thai was obligated by the awlltd letter, '] here is no
          n:~i;illll til lho: award roce ived ill the av..ard letter, l'he development of the Sllbgrantee agreement inc ludes
          ad ding the sp«:ial conditions contained in the Grant Award Notice rather IIuI n helns a scparal~ activ ity,
          TIll: nctivit)' referred 10 as the "first notific·ation" is in fact the Governor's award Ielu;r. Wtu.t the ~LJdi lor
          describes as the "second not ificati on" is the sn bgrl'lntct ~grce mcnt.

          As state{\ above. th e gn m fllnds Me require<! to he ohligHtcd within 45 days nfler tho Slll.lc rccc iv(.."Il the
          gram funding. 'Jhe SlAte met thi~ TaJ uiremcnt for &:rnnt yl.'iIfS FYOB, FYD9, and FYI 0 by the sending out
          the Governor 's award letleTs within 45 days. Thctcffltc, the n:mllindcr uf Ihe lWli il l\.']ll>rl ident iJ"ying It
          "stc.Ond not ifi e~ t i()ll" column of Tahle 3 that cit~ thai Ihl: Siall: was " Illte" ill the obligation and second
          nocific.1'Iion is nO( relevant to lhe DHS obligll1i"" ur rn"d~ rcqu irclllcnL

          Audlror's "'tndt ng 4;

          GE."tA sholild beller "I<,ni lor sl.lbgranto...'Cs.

          ~~xecutive   SUmnll:IT)' IIr RC!lpuu,>;e    tu Atjditur'l/ Finding 4;

          The SUIte   dl)e~   lIul":UII": l.1r with .-\tjditor's Fil1dUlS 4 for the follo....' ng reasons

          The th ird scnu:nc~ ur thi~ lIutlit report ~talcs: "GE~1t\ believes thlt these efforts are suffi(;ient to identify
          ami oor.....:ct :tny fillllllcial , PI·ogranunalie, WId oom.inistrat ive i.ssuc5 thllt rnay OCCUT. I lowl'.\,CT, OIlTrcvic·....
          sho.... fd that t.h ~>II: effurls do ItOt ,I/....r;rys ensure slI b@rantce wrop liancc: wi th federal hl\"1i and
          rt:q uirl:mcnt:J." (Emph asis added).

          In ad ditiun to thf substantial monitorilijl actiy ities thlll the SUIte cOlllluct~, as f\ilni . lIy dc<;erihed by the
          auditnr~, the ll.~lillraltCC that the subgrantee.!i wi ll comply with fed enl and slatl'. lav.'S, grant guidance,
          n:gu lalillllll, ~irculars and other requirements is strongly established by th e conlrnetual obliglltion of eve!]'
          sub!7antcc to comp ly with c\'ery requirement, includ ing penalties fo r fa illlrc to comply, clearly scI forth
          in th~ ~ub !ilalltl:e ugri*n l~ tli. Corrective ~etions ~ l1d penillties ~re included in each ~u hgrlln lcc agreement
          for noncompliance,

          Another strollg ufegtwd to compliance is the p.yment rcimbunICJIlr.:n1 procc.lt~ A~ r~rt of the subgr3Jltee
          agr~ement, s ubrecipienb rec~i \"e II budget .....orksheet with each item allowed to be purchGsod and the
          dollar amoun t that will be reim bur.;ed by the: State fur I,:lI\;h line it.cm, EaeiJ budget worksheet includes
          items only for lhe approved, obtig;'lted award u deseriOOd in the Go'o crnor's award ictle(, and illl items nrc
          allowabJe under fhe grant. Subrccipif nLS do nul receive any grant funding lor the item.s on the budge!
          worksheet unless they pruvit.k (lul.:umcnlatio" e\' idcncing pllyment by them for the specifIC item on the
          approvcd budget wo rbhcct included in the suligmulee Qgroement.

          The subgrnntee Ilgrocments, the Stllll:'~ combin.::d effons in desk monitori ng. p3)'lnem reimbur3elT1cnts,
          program man!!ler~' interactions ani.! ~ ite visits tOl;c tllc r with the ~ite monitoring proCe.!iS fulfill the State'~
          monitorins r«]u iremcnt.~ to lI.~surc compliance nlld 11;1l11:i.!it'S.




www.oig.dhs.gov                                                            36                                                               OIG-12-110
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




         The total effolts in administoring the Homelaud Socurity Grant Program grants awarded to the State of
         Georgia arc sufficient 10 eomply ...,-im the laws, regu lations nnd ~lllJlt requircmo;.·nt.s. The audit rcpon
         shitcmcnt ,•... (lllr review showed that thcoo efforts do not always enSlITe slIbgranlce com pliance wm
         tooeral laws and reqllirements" SUggeSTS th at the State asstlre 100% compliance from every grant
         subgranree for each FY08-10 HSGP grant to the State. It is the State's view that tho federal requirement
         is for the Stutc to monitor and administer the 3ubgnlllts llI1d take corrocti~· e n;;tion as needed 10 asslIIc
         complillnee. 11le State fulfills that requirement. Evell if II noncornplilln t action by a ~llbgranlce occurs,
         each ~Hbgranlee is under C(lntract with tile State with corrective action~ required to assure that any
         noncompliance is corrected in accordance with grant requirements. Tho auditors chose a sampling of
         subgrants to review for this audit, not all of them. Andjusl like the auditors who conducted tJlis lIudit, the
         Siale chooscs II snm pling of subgtulltee:> for more extensive rcvi~w. There has been no guic.lancc is~ucd
         that requires more.

         The aud it report stated tl131 only five sile monitoring reports had been submitted. However, sometime
         carly in the audit visit process the State submitted progmm monitoring reports regarding 48 hazardous
         rnal.l;rials rcspoo~ leams W Ihe al.luitur.i. The sl.Ulc wa~ r~ ucSl.l;d W ~<:nu adc.litional monitoring reports al
         the very end of the alldil procC!;.~ after the staff mcmhcr who conducted the monitoring vi~it.s bad left the
         State'S employment. Some aud it reports may not have been located aJ1d provided to tile auditor.

         Procuremt'nt Prlldicl'!i

         The State contends that it follo·ws federal and state procurement regulations. The report states that a local
         subgrantee did not provide sutlicient sole source documentation when purchasing $2.2 million in
         cOllllllunic~tiollS equipment. 11lfOUgh the 3ubgrallt;,e agreemem as outlined above, the State rel]uires
         subgm[]tcc~ to full ow luelll, s1Ut~ and fcJeral ru les and regulalion~ regarding pJOcurcfilent. The im;hmee
         cited inyolves a subgrant to the City of DouglasviUc, Georgia to facilitate the city's communication
         !()'!:tem integration with ig neighbor, Cobb County. Previous HSGI' grant~ awarded 10 Cobb County were
         designed to make that system the hub for intero perable communications across tho Atlanta metroJXlJitau
         area. Douglasville chose 10 make a sole source procurement with the vendor that dO\'eloped. tile host
         COW1ty'~ system leveraging the previous gra nts to help contain eost~. The City of Douglasville's sole
         ~ource exrtanalion is outlined in a letter attached 10 Ihis rc~ponse.


         The report cites that It contractor awarded a " local" university $450,000 for an update to an iuventory of
         food ~ystem~, hut that the contractor did not docllmenl -"ole ~ourcc ju~tification. By OHS definition, any
         col lege or university thM is Imder the purview of the Stale Il oard of Regents is considered a slate agency.
         The c011lmctor and " loc."ll" universities in this inst.:'lnce are both governed by the Boord of Regents, and
         both an; C(.msi(k-rcc.llli; sislt:r slllt.., ag~neies wWer Georgia law. Tllese are as follow;;:

         The Ulliver.fiiy System, which con.ii.>u of 35 teaching illStitulion.'J, is creaJed wuier the Georgia
         Constitvl;Oll of Iwn. Ga. Comt. A,·t. VIll, Sec. IV, I'am. I; a.e.G.A. §§ 10-3·20 thmugh 21J-3-87. The
         Board of &'gellts is considered a Georgia state agency. Miller v. Ga. forts Autn.. 266 Ga. 586,589
         (1996); Wihun v. Bd. uf R.i!g.mlJ, 262 Gu. 413.414(3) (1991); Pulhlrd ~.. 1M Of R.i!gtmls, 260 G'I. 885,
         887(b) (1991).

         1.2.2.1. 1nfergowmm,'nt(l! Agreements (from til(! State Procurl!mellt Ma'luaU
                                                                                                                  if Ihe
         The Georgia CO(lStitlllion authQriz~s Sfate elltith'-'f to eJ/te:r iI/to ,IN i,ltergovernmeflfal agre<'menl
         items 10 be acquired are availab1e.from that source.
         An interg(Jvernmental agreemellt is a contract between two ur more government entities. Pennissible
         gow rnment enlilies inc!w:l~ state: and local (COl/lilY, city, etc.) governmeltt entities wUhill 'he Mate Ilj
         Georg ia tl5 well as other states of the United States of America. Jnt.:'rgo~·entmcmal agreemems do not
         require appru ...uI from SPD Stule PUf'l:hw,·jng Divi.'Jioll or compefith'e biddillg and are 1101 .l'Ubj<:cl 10
         dol/ar limits.




www.oig.dhs.gov                                                  37                                                        OIG-12-110
                                             OFFICE OF INSPECTOR GENERAL
                                                   Department of Homeland Security




        .vOTE: To be cOflsidaed exempt from tnt' competiti~e bidding reqwirements ojth•., Stale l'-wchasing Act,
        Iht: X()vd "r ~'f!rvi,·t: must bt: mUIt:riully pruvided by tl/t: other governmental enlily und flvl p(Js~t:d through
        the governmelllol emily hy a private third pany.

        This was explained ill great detail to the au diting team regarding the "contracting" un ivCl'sil)'. The samEt
        laws and stute ru les of procurement under ,>,.I\ieh the State eoutructed with the first unive rsity also apply to
        the two univer3itic~ contracting with one IInother.

        Grant luventory Requirements

        In the Grant Invento ry section of the re port , 44 CFR J33 2(d), Mwwf!,emerlf RequiremeNts is cited as
        establishing proccd un;s for mlll1agl.TIlI:nt    or  cquiprnl."Tll ao.:quiro..:d with grant funds . The subgrnnlo:.:\.:
        agreements cnler.xl into between the Stal.e and the suhgrantl;:c~ for all gl"llllt ycar;\, FY.~ 08- 10, su bject to
        the current fllldit include the requirement that subgrantees comply with 14 CI'R 1]. Comp liance to these
        requiromenu is promised through the signature on the agreement by tbe Chief Executive of each
        ~ubgnllltcc's parclIt j urisdie tio n. Excerpts ofthese agreements ure below.



        FYI0 HSGP Subgrantce Agreement, exccrpt from page 3

                 2.   lu",.~, ReguliJ.lions and PrIJRram Guidance: The St;bj?,rwj/i:t1 ~haJ/ comply with the most
                      recem wrsion {ljthe Administrative Requiremem,~, Cost Principles. and audit Requirem(J1Jf.~.
                      A nor.-exclusive list oj regula/ions commonly applicable to DHS grams are listed below.
                      &'j;..renci:d CFR secticms may be acce.ssed Ol/line (11 www.gpoaccess,g~/ecfr/

                      A , Adminislmlivl! Requirt!men(s
                           I) 44 CFR Pm'f 13, Uniform Admini~trative Requirent£nt.tjor flrant.t and Cooperative
                              Agreements /0 State and Local Goverllllll.mts;
                           2) 2 CFR P,rrl 115 Unfform Adminislmtivc &'1UirC!TU.Wb jor Grants ClnJ AWeemenb
                              with insfilUlions ql HiKher Educativn, Ho~'pi(u{s, WId Other },'()/I-Projit
                                OrganiZlltir:ms (O,\/B Circular A-I 10)
                      H.   C~J.\'t l·rinciple.~·

                           /) 2 CFR Part 225. COoSr Prfllciplcs jor SUIte. Local and Indian Tribal Go~'emments
                              rOMB Circ..-ulw A-87)
                           2) 2 CFR Pari 220, Cwt Prirn:ipl;:.yjor Educational In~/ilu(ions (OME Circular A-lI)
                           3) 2 CFR Part 230,       C{>.~t I'rinciple,~ jor N(J/l ol'roji! OrganlzGtwm (O.HE Circular A-
                              122)
                           4) Fl;!deral A,·qui.>ition Regulations (FAR). Part 31.2 Contract Cost Principles and
                              Prv(;ed!lre~. Cuntract)' wilh Commercial Organizations


                      C. AUl/it Requirements
                           OMB Circular A·133, Amiif)' vj              S!ule~,   ux:u/ GOVl;;rnmenll!. and Nun-Prvfit
                           Orgallizafions




www.oig.dhs.gov                                                     38                                                            OIG-12-110
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




           FV09lfSGP SubgraD1.Cc Agreement, excerpt from palle 3
           Audits, Finam:;al RegulfftioflS and Guides

               1. Audits ond ,110nitormg: The SlIbgromee agrees tlmtfederal or stale o))icia{s aJld aU<iil(Jf'S or
                  their duly aPJtlwrized represenJatives may cOIiducf programntlllic, jbu1JIciat and
                  administraJive monilOrin,.;. mldirs atid e;wminalions. The Subxramee further agree5 that
                  such officwb, auditor.~ or represenl.atil'f~.1 .rhall ha~·e acces.v III any hOm:.I, dOCWIU!I1IS, paper.~
                  and records 0/ allY recipients q( Ihis jundinJ!. and oj My persons or entities which perjorlll
                  any aaivlty which Is reimbursed to any B.ttem wilh federal or stare fimd.s distributed under
                  the aulhnrity oj lhe C(Jn.'(JIidmed Security, Di.w,ll/er A.lwLllunL'e, and C(Jntinuing
                  Approprialions Act. 2009 and this Agreement.

               2. Laws, Regularwns and Progrllm Guidance: The Subgramcc sh(l/l comply wilh the most
                  recent version lif the Admini.ltraJive Requirementv, Co,vl Prinr:iple.v, and tmdit ReqZlirorn rml.l".
                  A non-cxdmil·C lisl oj regulations commonly applicable 10 DliS grants arc fisted be/r)w:
                    A. Admif1u·trutive Rl!lJuj,eml!n/~·
                         1) 44 CFR Purl 13. Uni/urm   Admini.r(rati~i: Rel.JlIiro:rnent~' Ivr Grums and CoopemliFI!
                            Agreements to State and Loca} Governmclll..1;
                         2) 1 CFR Pat'i 2} 5 Uniform Admini.rlrativo: Requirements jor Grunl.l· and Ai!n!emen/~
                            with 1nstiturions oj Higher &illcario", llrupitals, cllld Drher Non-Profo
                            Org(1ni~aliOIJj (OMH Circular A_I HI)

                    n.   COS! Principia

                         1) 2 CFR Part 225. Cost I'rinciples jor       ~)ate,   LOCr1! (1J!d Indiall '/'ribal   Go~·enwu.'m$
                              (OM8 Cirt:u!Q/' A-87)
                         2) ] CFR Part 210, Cruf Principles/or Educational Institutions (GUIJ Circu{w.1. -21)
                         3) 2 CFR P(lrt 230, Cmf Princip!e~ jor Non-Profit Orgallizalians (OlI1R Circultu A-
                            122)
                         4) lifdel'ul .4aJuisifioll !?egulaUrm.< (FA!?), Pari 31.2 Cllntracl C()'ft l'rincipln and
                            Procedure~; Contracts wilh Com,"erciaJ Orf!,(llliu/tions


           1'\'08 USGL' Subgrantee Agreement, fXcerpt fram page 3

               2.   Laws, Nolgu/a/wllS and Program Guithtnu: TIre Suhgra11l~e agr2e.~ (() C(Jmply with all
                    upplicuh!1I! laws, rll!j?ldalions and prOf!,ram guidcmce.   Specifically withowt lilllitation,
                    Subgr(mtec must comply wfrh Fbi'dA's codifiold roJgu/(I{ion 44 CFR Part 13, Uniform
                    Admini.'llralive Requirements jar Grants and Cooperative Agreements to Slale and weal
                    G(YI'erllments. A lion-exclusive fist of regu!atlons commonly applIcable IQ JJIIS grants are
                    IisleQ' below, including the gu!dance:

                    A. Admlnlslrmtl>e Hequirrments
                         J) Office oj Mcmagcmem and BudgN (OMB) Circular A-to}. Stare and Local
                            G(Jvf!rmnenls (10//07/94. amended 08/29/07) (44 CFR Part 13j;
                         Z) OMS Circular A-JJO, Institutions of /fightr l:(}ucat!on. Hospitals. and O(ha Non-
                            Profit Organi;alionI (j1/19/93. ame"d~d 09/30/99) (2 CFR Ptl(1215)
                    R. Cost Principles
                         1) OMS Clrcl/lar A-87. SIGle (l1l([ i.ncal G(Jvernmen(.~ (5/f()104)
                         }) OMB Circlilur .4.-21, EdIlt'aJiolWf 1nstitllliofls (5/10/04)
                         3) UMlJ Circlilar A-l22. Non-Profit Organizations (V10!04)




www.oig.dhs.gov                                                 39                                                             OIG-12-110
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




        Thc AUdit report stated "Subgrc.ntee personnel indicated that they were not aware of the federal property
        manugcment requirements, despite the requiroment~' inclusion in the tcnns of the subgrantec contracts
        with GHMA." The audit report conclude;;, " laJ~ a result, UEMA cannot ensure that assel~ Jlr.:lcured \'li th
        grant funds are adequately safeguarded to prevent loss, damllge, or theft and used as intended. TIlis could
        result in an emergene), situation in which GEMA may not always have knowledge of the locntion of, or
        TClldy a~cc.~s to, vital emergency prepBrednes.~ cquipment." (Emphasis added.)

        "'\lhile GEMA understll1lds lhe concern about the subgrantee's personnel responding to the auditors
        quest io n, GI':MA would need to follow up with the subgrantce to assure that the personncl who respon ded
        to tlle audit 'were the people who actually lise tbc equ.ipmenT. In some agencies. especi<llly larger ones, tbe
        personnel who maintain ~ords al'e no! the same people who maintain and use the equipment The
        statemenl in the audit report that GG.\L-'\ ealllllJl ensure use as intended of the equipment and ILn~e access
        J]) vital emergency preparedne.::.<l equipment is not a eertain conclusion of the Iludit, and the State

        considers t!iis an irresponsible conclu5ion and statement. Smte Program Management staff maintain
        continuul eontu.ct with gl1lllt ro;ipiellt$ to ensure that capabilities are maintained. In additicn the State
        eonduc\.S ro uline truining and cxerci$t; prugrwns wherein tltis equipment b needed end te~led . While
        GEM!\, conced~.~ that comJlliance with 44 CI' K 1J is important and noncompliance mllst be remedied, the
        aud it did not fiud any instances of loss, damage or theft which, in accordance with the requirements of 44
        CFR 13.32(d·), must be inve sti~ulcd, ·rhe lIudil repvrl did not find any actuu1loS!>, da.lllage or !lIef!, which
        would require an investigation undcr 44 eFR 13.32(d), hut the inability of personnel "ithout infonnll.lion
        regarding th~ ~qllipment would warrant fmther inquiry betOre detcnnining that th~ equipment was not
        avuilable in 1lI1 emcrgcncy.

        lbe State Strongly disagrees wiTh tbe IUlditors' belief milt the eqlJipment may he mi s~ing and therefl're nl't
        available for an emergency, This assenion may be bllsed on an interview, po'lllibly with non-program
        slaff that simply wereD·t uwun: that thc e(lUiprnCIlI is un hand. But the Slate agrees thai in order LO ensure
        thllt 1111 equipment i,~ availahle, maintained and/or rcplaced as needed, stronger inventory controls arc
        desirable. 11le State will deve lop inventory control procedUre<;, and conduct training wiTh subgrnntces TO
        mllke lllClIl uware of tile requirement.

        lbe Repol1 of Audit states that subgrnntees did not always mark equipment purchased with Hl'rnelaM
        Security Grant funds. The subgrant\,.~s IIfC nol r~quircd to always mark equipment purchased with
        Homeland Security (]rant Pmgram fnnding. It is noted that the verbiage in thc SJX:cial Conditious
        included ill the Grant Award Notices tor the FY08 ilnd JIYU9 HSGI' Grants do not TCOjuire decals on
        ~4uipllleHl in all iustances but instead statelS that the decals mnst: be applied "when pract icable." The
        FYIO HSGP grant guidance docs not require uppli~utiull of decals, but ~ugges1.S !llat it might benefi t
        recipients of grant fimding J]) apply decal~.

        nc GEMA 911bgruntee agreemlluls for tile fY08·l 0 HSGP grallts include a special condition statin g:
                The Subgrontee agrees that, when practicable, any e'luipment rurcha~ed with grant rund ing ~ hal1
                be prominently marked K~ fulluws : "PurChll£ed with fumls provided by the U.S. Department of
                Homeland Security.

        Al!llOUgh clculy not a requirement, the Stllle issued decals for stich pnrpose for application to special use
        \'chiclcs in the pust.




www.oig.dhs.gov                                                  40                                                         OIG-12-110
                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security




       Rcspon~    to Rccommeadati OIlS:

       Recommendation #1: This two part recommcndatiOll ask s that I'EMA a~sist the State and lJASI in
       dev elopi ng strategies that include specific, measurab le, realistic objectives with timelines.

       The State Strategic Plan ha~ been rev ised and i ~ under TCview as a fi rst draft, and it mceL'I VEM A (ipn
       requiremenTS and guidance. The p lan should be completed an d puhlished by July I 21112 and will be
       submitted to FEMA GPD at that time.

       The State wi ll review the lIASI Strategic Plan and ensllre       th~t   it   ~Iso m~ts   requ irements and guidance
       before the end of calendar year 20 12.

       Rcoomm endation #2: Thi& recommen dation asks FEMA GPU to require GI:J......IA to align its Overall
       Readin ess Index with FEMA grilnt gll id:mce.

       TIle Overall Readinl.\3:i Index is yet another 1001 that GEMA employs lO googe rcndinl.\~~ aero~s it3 varied
       resp onsibilities. As an internal process, G liMA doe~ not believe that I'liM A has any authorities over thill
       process Of doc.ument, GEMA will continue to use that and other processes to gu ide the State toward
       readiness.

       Recommendation #3: This recommendation cal1.s upon FEMA to require GEMA to 5teamJine its current
       pf(.)e~~st.:~ umJ pwCt.:durc~ regarding subgrnnl award~.

       GEMA is confident that the dead lines established by I'b\-tA GPU are being met. Also as SUIted, GEMA
       will contin ue to error on the side of caution regardi ng iss ua nce of aWlIrds to ensnre that the State remains
       good 3t~wunb of this fOOt.:rul fund ing.

       ReCOllllne~ldation #4: 'nICs reCO llllllf.mdation as.ks FEMA GPO ro re quire UEMA to notify all 5ubgrantoe:s
       of the tequireml:lli 10 follow federal, stale a nd local procure ment reguJ atiolls and policies,

       As presented in the "PrQCun:mw r" section of th is response, the State is confident that the binding,
       su hgrantcc agreement sib'TICd by grant rt.:eipien ts euntaills languag~ tlmt clearly nulifit.:s grantru;ipicnll; of
       the requirement~ regarding procurem en t.

       RcsornmcDdatjon # 5: This rccumm~ ndal ion "''llcuurllg~~ GEMA 10 n:~ i ~w ull grunillwani pureh uSl: s of
       more than $ 100,000 to ensure proper procurt:m cnt pro~edllrcs w,:rc foll uwt.:d.

       OE.M A will e ndeavor to identifY and rev iew such awards by the end of 201 2 for the grant years noted to
       ensure that procu rement rcguiatioru; and procedUJe:; were followed.

       RC!(ommendation #6: This recommendation suggests that GE.I">iA. be required to dev elop a program
       monitoring. sched ule and pllm.

       TI le pos ition within GEMA responsible for program monitoring is currently ~·aca nt . .\S soon as practical
       after hiring, OEMA will c.sll1blish II lIlon itl)ring ~dledule to ooJlduel program monitoring visits. GEMA
       will al.~o continue to eontrad with profe~ional !lSsocia tions tu IlSllisl in the mu niloring I'wt.:t.-:is. GEMA
       will a lw develop and im plement II program monitoring plan by the end 01"20 12.

       Recommendation #7: This rec ommendation would require GEMA to revise HIld update the financ ial
       monitoring guide to ensllre that data is captured to assure compliance hy suhgrantces.




www.oig.dhs.gov                                                   41                                                          OIG-12-110
                                        OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security




       GEMA will comply with this rocommendation, and will devc lop Md implement a more robust financial
       m(')niloring guide that include~ n!MA requinnents by Scptemher I 20 12.

       Recommendation #S: TIlis recoOlmoodation asks FE.\{A GPO to require GEMA to institute an iUYentory
       cllnLruI syslem r<;:garding elluipmt:nt purchased Lhruugh grllIlt.s.
       GEMA will develop furthcrguidancc documents and training for 3ubgrantccs regarding inventory control
       policiM to be instituted for grant awards in lillY 12.

       Reco mmendation 119: TIlls rcc{)wlllcndation would require FEMA to enhance its monitoring program.
       GEMA has no reply to this rec ommendation, but will Coopl.lra1c with all program monitoring visits ami
       requests for infonnation by I;Illi\{A.




www.oig.dhs.gov                                             42                                                  OIG-12-110
                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security




www.oig.dhs.gov                43                    OIG-12-110
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix D
   Description of the Homeland Security Grant Program
   The HSGP provides Federal funding to help State and local agencies enhance capabilities
   to prevent, deter, respond to, and recover from terrorist attacks, major disasters, and
   other emergencies. The HSGP encompasses several interrelated Federal grant programs
   that together fund a range of preparedness activities, including planning, organization,
   equipment purchase, training, and exercises, as well as management and administration
   costs. Programs include the following:

       •	 The State Homeland Security Program provides financial assistance directly to
          each of the States and Territories to prevent, respond to, and recover from acts
          of terrorism and other catastrophic events. The program supports the
          implementation of the State Homeland Security Strategy to address identified
          planning, equipment, training, and exercise needs.

       •	 The Urban Areas Security Initiative provides financial assistance to address the
          unique planning, equipment, training, and exercise needs of high-risk urban
          areas, and to assist in building an enhanced and sustainable capacity to prevent,
          respond to, and recover from threats or acts of terrorism and other disasters.
          Allowable costs for the urban areas are consistent with the SHSP. Funding is
          expended based on the Urban Area Homeland Security Strategies.

   The HSGP also includes other interrelated grant programs with similar purposes.
   Depending on the fiscal year, these programs include the following:

       •	 Metropolitan Medical Response System
       •	 Citizen Corps Program
       •	 Law Enforcement Terrorism Prevention Program (through FY 2007)




www.oig.dhs.gov                               44	                                    OIG-12-110
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix E
   Description of State of Georgia’s Homeland Security Grant
   Program Process

   The Governor of Georgia designated GEMA within the Georgia Office of Homeland
   Security to serve as the State Administrative Agency. FEMA requires that the State
   Administrative Agency be responsible for obligating grant funds to local units of
   government and other designated recipients. The following is a flowchart and
   description of the grant process as administered by GEMA.




   Grant Guidance and Application

   According to GEMA officials, Step 1 of the process begins when FEMA issues the
   Homeland Security Grant Guidance and Application Kits for each designated grant year.
   GEMA, in collaboration with the All Hazards Council and all other subgrantees (Step 2),
   determines the needs, assessments, and priorities for State grantees. Then the All
   Hazards Council, a statewide working group of State, county, and local elected leaders


www.oig.dhs.gov                              45                                     OIG-12-110
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   and first responder officials, establishes program needs and priorities in a coordinated
   and collaborative manner (Step 3).

   The Atlanta UASI and the All Hazards Council develop grant strategies and spending
   plans (Step 4), which are then forwarded to GEMA and consolidated into the State
   Homeland Security Strategy and Investment Justification. GEMA then submits the grant
   application package to FEMA for approval.

   Grant Funding

   FEMA reviews and approves the State’s grant application package (Step 5) and then
   issues SHSP and UASI grant award letters to GEMA. GEMA determines the funding
   allocation, prioritizes grant projects, and creates budget worksheets for each
   subgrantee (Step 6). The budget worksheets are control mechanisms that GEMA uses to
   track grant awards and reimbursements throughout the entire grant process. A
   subgrantee may have more than one budget worksheet. Award letters are sent with the
   subgrantee agreements and budget worksheets to the subgrantees.

   Procurement

   In general, subgrantees accept award letters, subgrantee agreements, and budget
   worksheets (Step 7), and then begin making grants and submitting documentation for
   grant reimbursement. In some cases, GEMA may enter into a memorandum of
   understanding with a State agency or local jurisdiction to make grant purchases on
   behalf of a subgrantee.

   Once subgrantees make grant-related purchases, they submit copies of the budget
   worksheets, invoices for goods or services procured, and a copy of the check or
   electronic funds transfer for grant reimbursement to either GEMA’s Finance Division
   (Step 8A) or its Public Assistance Division (Step 8B). The Finance Division processes
   grant reimbursements for management and administrative costs that GEMA incurs
   during the grant process and passthrough funding to State agencies and contractors.
   The Public Assistance Division processes grant reimbursements for grant passthrough to
   all other subgrantees.

   Reimbursement

   Once subgrantees submit grant reimbursement paperwork to GEMA, the process
   continues with the GEMA consultant (Step 9) receiving electronic Microsoft Access
   entries from the GEMA Public Assistance and Finance Divisions. The consultant converts
   reimbursement entries from Microsoft Access to PeopleSoft, verifies the information,
   and sets up purchase orders. The State Accounting Office also receives delivery orders

www.oig.dhs.gov                                46                                     OIG-12-110
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   from the Finance Division to reimburse State agencies or GEMA vendors. The State
   Accounting Office verifies the purchase order and delivery order amounts, and then
   initiates the grant drawdown of funds from FEMA (Step 10). The State Accounting
   Office then issues reimbursement checks to GEMA, which in turn forwards grant
   reimbursement checks with notification letters to subgrantees (Final Step).

   UASI

   UASI funding has an additional review process. UASI subgrantees submit
   reimbursement documents to the Atlanta UASI. Once the UASI verifies the
   documentation, it is forwarded to GEMA for final approval. The State Accounting Office
   draws down grant funds to be sent through the Atlanta Regional Commission, with
   which the Atlanta UASI has a contract to provide finance and procurement functions on
   behalf of the Atlanta UASI. Because the Atlanta UASI is not a government entity and
   cannot function as one to receive or distribute Federal grant funding, the Atlanta
   Regional Commission contract provides essential finance and procurement functions for
   the Atlanta UASI. Under this contracted relationship, the Atlanta Regional Commission
   forwards grant reimbursement checks to UASI subgrantees.




www.oig.dhs.gov                              47                                    OIG-12-110
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix F
   Major Contributors to This Report
   Patrick O’Malley, Director
   J. Eric Barnett, Audit Manager
   Dennis Deely, Audit Manager
   Jose Benitez-Rexach, Auditor
   Jeff Wilson, Program Analyst
   Andre Marseille, Program Analyst
   Jason Kim, Auditor
   Kevin Dolloson, Communications Analyst
   Ralleisha Dean, Independent Referencer




www.oig.dhs.gov                             48                  OIG-12-110
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix G
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretariat
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                 49                         OIG-12-110
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
